<html>
<title> - DEMOCRACY UNDER THREAT IN ETHIOPIA</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






                   DEMOCRACY UNDER THREAT IN ETHIOPIA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2017

                               __________

                            Serial No. 115-9

                               __________

        Printed for the use of the Committee on Foreign Affairs






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

24-585 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Terrence Lyons, Ph.D., associate professor, School for Conflict 
  Analysis and Resolution, George Mason University...............     5
Mr. Felix Horne, senior researcher, Horn of Africa, Human Rights 
  Watch..........................................................    17
Ms. Seenaa Jimjimo, president, Coalition of Oromo Advocates for 
  Human Rights and Democracy.....................................    38
Mr. Tewodrose Tirfe, co-founder, Amhara Association of America...    45
Mr. Yoseph Tafari, co-founder, Ethiopian Drought Relief Aid of 
  Colorado.......................................................    54
Mr. Guya Abaguya Deki, representative, Torture Abolition and 
  Survivors Support Coalition....................................    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Terrence Lyons, Ph.D.: Prepared statement........................     9
Mr. Felix Horne: Prepared statement..............................    22
Ms. Seenaa Jimjimo: Prepared statement...........................    40
Mr. Tewodrose Tirfe: Prepared statement..........................    48
Mr. Yoseph Tafari: Prepared statement............................    57
Mr. Guya Abaguya Deki: Prepared statement........................    66

                                APPENDIX

Hearing notice...................................................    82
Hearing minutes..................................................    83
Questions submitted for the record by the Honorable Christopher 
  H. Smith, a Representative in Congress from the State of New 
  Jersey, and chairman, Subcommittee on Africa, Global Health, 
  Global Human Rights, and International Organizations, and 
  written responses from:
  Terrence Lyons, Ph.D...........................................    84
  Mr. Felix Horne................................................    86
  Ms. Seenaa Jimjimo.............................................    88
  Mr. Yoseph Tafari..............................................    94
Material submitted for the record by the Honorable Christopher H. 
  Smith:
  Statement of a coalition of groups.............................    98
  Statement of the Embassy of Ethiopia on H. Res. 128............    99
 
                   DEMOCRACY UNDER THREAT IN ETHIOPIA

                              ----------                              


                        THURSDAY, MARCH 9, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:00 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order and good 
afternoon to everyone. As we begin today's hearing, we examine 
the troubling conditions for democracy and human rights in 
Ethiopia. Let us stipulate that this east African government is 
a prime U.S. ally on the continent. Ethiopia is a primary 
contributor to peacekeeping missions along the South Sudan 
border, in South Sudan with UNMISS, and AMISON in Somalia.
    Ethiopia joined the U.N. Security Council in January and is 
one of the three African members of the Council, along with 
Senegal and Egypt.
    During a series of private negotiations in the last months 
of the previous administration, Ethiopia officials acknowledged 
that the tense situation in their country is at least partly 
their government's fault. There have been discussions with 
opposition parties in consideration of changing the electoral 
system to use proportional representation, which could increase 
the chances of opposition parties winning parliamentary and 
local races.
    Late last year, the government released an estimated 10,000 
prisoners despite maintaining a state of emergency. However, 
there are at least 10,000 more people held in jail who are 
considered political prisoners and the government continues to 
arrest and imprison critics of its actions.
    In January, two journalists from the faith-based station 
Radio Bilal, Khalid Mohamed and Darsema Sori, were sentenced to 
5- and 4-year prison terms, respectively, for inciting what 
they said were extremist ideology and planning to overthrow the 
government through their coverage of Muslim protests about 
government interference in religious affairs. The journalists 
were arrested in February 2015 and convicted in December under 
the 2009 anti-terrorism law, alongside 18 other defendants.
    In late February, Ethiopian prosecutors charged Dr. Merara 
Gudina, chairman of the Oromo Federalist Congress, with 
rendering support to terrorism and attempting to disrupt 
constitutional order. Dr. Merara had been arrested upon his 
return to Ethiopia after testifying in November at a European 
Parliament hearing about the crisis in his country. He 
testified, alongside exiled opposition leader, Dr. Berhanu 
Nega; and Olympic medal winner, Feyisa Lilesa. Other senior OFC 
leaders including the deputy chairman, Gerba, have been 
imprisoned on terrorism charges, so called, for more than a 
year. Both are viewed by many as moderate voices among 
Ethiopia's opposition.
    According to the U.S. Department of State's newly released 
Country Reports on Human Rights Practices report on Ethiopia, 
security forces killed hundreds in what they say is the context 
of using excessive force against protesters in 2016. At year's 
end, there were more, according to the State Department, more 
than 10,000 persons still believed to be detained. Many have 
not been provided due process. The government has denied the 
U.N. High Commissioner for Human Rights access to the Oromia 
and Amhara regions.
    The lack of due process in Ethiopian courts also affects 
foreigners. Israeli businessman Menasche Levy has been in jail 
for nearly 1\1/2\ years on financial crimes charges. The 
government officials accused of being involved with Levy in 
illegal activities have had their charges dropped and have been 
released from jail, yet Levy's next court proceeding won't be 
for several more months. We cannot determine his guilt or 
innocence on the charges, but it is clear that he has been 
denied a trial in a reasonable time frame and has been beaten 
in jail by other prisoners and denied proper medical care. 
These circumstances unfortunately apply all too often to people 
who come in contact with the Ethiopian court system.
    My staff and I have discussed with the Government of 
Ethiopia the possibility of working cooperatively to find ways 
to end the repression without creating a chaotic transition. 
Unfortunately, there is significant variance in how that 
government sees its actions and how the rest of the world looks 
as well. That is why I and my distinguished ranking member, Ms. 
Bass, and some other of our colleagues have introduced House 
Resolution 128 to present the true picture, as true as can be 
painted, as to what is going on in Ethiopia today. This panel 
and this hearing is designed to elicit additional insights so 
that we can absolutely get it right and then hold that 
government to account.
    In the first panel, we have witnesses who will provide an 
overview of the current state of democracy and human rights in 
Ethiopia. They will present the facts.
    Our second panel consists of four Ethiopians representing 
various ethnic groups and organizations created to help the 
Ethiopian people.
    We have no opposition parties appearing today despite the 
tendency of the government and its supporters to see anyone, 
anyone who disagrees with them and their actions as supporting 
terrorists seeking to overthrow the government. Presumably, 
this subcommittee falls into that realm as well.
    It is my belief that until the Government of Ethiopia can 
squarely face the consequences of its actions, there will not 
be the genuine reform that it has promised. For example, 
government officials say we have mistakenly said that the 
ruling coalition holds 100 percent of the legislative seats. We 
have said the coalition holds all of the seats, whether in the 
name of the coalition itself or as affiliate parties. If the 
government cannot be honest with us or itself in such an 
obvious manner, it is unlikely that the conditions for reform 
can exist.
    The government does appear to realize its precarious 
position. We have discussed the frustration it creates by not 
fully allowing its citizens to exercise their rights of speech, 
assembly, and association.
    In a hearing that we had in June 2013, Mr. Nega said the 
government had created a situation in which there is no 
legitimate means to redress grievances. Although the government 
jailed him after he won the 2005 race to become mayor of Addis 
Ababa, he was not known to have begun his campaign of armed 
resistance until after that time.
    Let me yield to my colleague, and then I will get into some 
introductions and then we will continue there. I would like to 
yield to the distinguished gentlelady from California, Ms. 
Bass.
    Ms. Bass. Thank you. Thank you, Mr. Chair, for holding 
these meetings and to our witnesses that will be coming on both 
panels. I want to thank you for being here. I look forward to 
hearing from each of the witnesses. And I also welcome the 
audience and understand their concern and desire to see the 
issue regarding the lack of democracy in Ethiopia thoroughly 
addressed. I know that there are a huge number of people 
outside that are not able to come in, and hopefully throughout 
the hearing maybe we can find room for them over time.
    Over the past decade, Ethiopia has made significant 
economic strides addressing poverty and expanding economic 
development. Ethiopia has appeared repeatedly on the list of 
the world's fastest growing economies with growth rates in 
excess of 8 percent per year.
    Ethiopia has also been a stalwart partner of the United 
States in many areas such as regional security, and 
increasingly, trade via AGOA and enjoying strong bilateral 
relations with the United States.
    I must also note that by way of hard work, astute 
scholarship and a strong support system, the Ethiopian-American 
community has become one of the most successful African 
diaspora communities in the United States. The Ethiopian 
diaspora has never turned its back on its country and has 
contributed millions of dollars in remittances to the country's 
economy.
    However, all of these achievements take place against a 
backdrop in Ethiopia which is described as a diminished 
political space and a steady assault on the human and civil 
rights of citizens. The right of peaceful assembly and freedom 
of expression is increasingly challenged. There is reportedly 
no free media in Ethiopia and Internet service reportedly has 
only recently resumed following the government declared state 
of emergency in October of last year.
    According to the State Department's recently released 2016 
Country Report Human Rights report, there were numerous reports 
of the government committing arbitrary and unlawful killings of 
security using excessive force against protesters. The protests 
were mainly in Oromia and Amhara regions. At year's end, more 
than 10,000 persons were believed to still be detained.
    While these two communities are clearly the focus, as was 
cited in House Resolution 128, supporting respect for human 
rights and encouraging inclusive governance in Ethiopia, 
several vulnerable communities in Ethiopia are subject to 
government interference such as the Muslim community and the 
indigenous Anuaks in the Gambela region.
    I am privileged to represent a part of my congressional 
district that includes a section of Los Angeles that is called 
Little Ethiopia. Some of my constituents expressed concern 
before this hearing that they felt that they wanted to be sure 
that the hearing didn't over emphasize ethnic divisions and 
contribute to the U.S. stereotype of Africa, that the problems 
are just a result of inter-ethnic fighting. So I want to make 
note of that.
    I also want to report on a description of what life is like 
in Ethiopia now as described by one of my constituents. She 
says that her mother says that the suspension of civil 
liberties is affecting every facet of daily life, that people 
cannot travel around the country to conduct business, visit 
friends, or care for relatives. She said that the Internet was 
down for some months, but she thinks it was between 2 to 4 
months that there was no Internet service, but it has been back 
up for the last several weeks.
    Members of her family are farmers who were forced off their 
lands by the government. The family has fled into the forest 
and is now part of the resistance force. The family doesn't 
like being in this position and doesn't want to participate in 
the resistance, but basically now has no crops and essentially 
cannot support itself. Buses won't travel to her part of the 
country and with travel restricted, even if there is a crop, it 
is hard to get to market. She describe a state of emergency 
that appears to have no end in sight.
    I think it is important that I communicate concerns 
directly from my constituents and from the Ethiopian-American 
community and Little Ethiopia in Los Angeles. I will note and I 
am sure our chairman will, too, that we have a letter of 
explanation from the Embassy of Ethiopia that, needless to say, 
refutes most of these charges. I am just looking at the letter. 
I have not had an opportunity to read it. I will glance at it 
during the course of this hearing and might raise questions 
connected to their response.
    Mr. Smith. Thank you, Ranking Member Bass. I would like to 
now introduce our very distinguished first panel beginning with 
Dr. Terrence Lyons, who is an associate professor of conflict 
resolution at the School for Conflict Analysis and Resolution 
at George Mason University. Dr. Lyons was a fellow at the 
Brookings Institution, served as senior program advisor to the 
Carter Center's Project on Post-Conflict Elections in Ethiopia 
in 2005, and has worked as a consultant for the U.S. 
Government, the World Bank, and several non-governmental 
organizations on issues relating to democracy and conflict in 
Africa. He has written extensively on Ethiopia and taught at 
universities there. Welcome, Dr. Lyons.
    I would also like to welcome, Mr. Felix Horne, who is the 
senior Ethiopia and Eritrea researcher for Human Rights Watch. 
He has documented the human rights dimensions of Ethiopia's 
development programs, telecom surveillance, media freedoms, 
misuse of counterterrorism law, and other topical issues in the 
Horn of Africa, including the year-long crackdown against 
peaceful protesters in Ethiopia. Previously, Mr. Horne worked 
on a variety of indigenous rights and land issues, including 
several years of research into the impacts of agricultural 
investment in several African countries.
    Again, thank you for being here and I would like to note as 
well that we do have an overflow crowd of very interested 
Ethiopian-Americans and others who are concerned about human 
rights there.
    It is a privilege to welcome each and every one of you 
here. I think you bring additional impact to all that will be 
said here, that there was such heightened concern about what is 
occurring there. And parenthetically Greg Simpkins visited 
Ethiopia right after the 2005 elections when people were being 
killed in the streets, sadly, under President Meles. We met 
with President Meles, and sadly we are now talking about a 
very, very serious deterioration of human rights and I look 
forward to your testimony.
    Dr. Lyons, the floor is yours.

STATEMENT OF TERRENCE LYONS, PH.D., ASSOCIATE PROFESSOR, SCHOOL 
 FOR CONFLICT ANALYSIS AND RESOLUTION, GEORGE MASON UNIVERSITY

    Mr. Lyons. Thank you very much, Chairman Smith, and Ranking 
Member Bass. It is a great pleasure to be with you here today. 
You have very kindly given my introduction. I will maybe pause 
and reflect on one additional thing. The only other time I have 
ever testified before Congress was in 1992 after Ethiopia's 
local elections before the House subcommittee, so 25 years 
later I have the privilege again and that lets you know the 
years that I have tried to understand Ethiopia.
    I want to make clear that my thoughts today represent my 
best judgment as an independent scholar who regards himself as 
a friend to a diverse range of Ethiopians on all sides of the 
political spectrum, rather than as an advocate for any specific 
constituency or policy. So I am going to try to provide a 
context to the current crisis, why I think Ethiopia is at the 
crossroads, and some thoughts as to what U.S. policy might be.
    My first point, as you will see in my written statement, 
relates to the stakes in Ethiopia at this moment. But Chairman 
Smith, you covered much of that. Ethiopia is a country of 
enormous importance to the Ethiopians and to the other people 
in the Horn of Africa, to the United States, to policies on 
countering terrorism, peacekeeping, a country that has seen a 
remarkable process of development over the past decade or so. 
At the same time, a country with very serious human rights 
concerns that you outlined and my colleague will further 
elaborate.
    So let me go and give one very, very large overarching 
point about where I see Ethiopia and then some of the more--
break it down or unpack it.
    Ethiopia, since 1991, has had a balance between a politics 
that was about autonomy, was about regional states, was about 
ethnically defined political parties. That was one direction 
that the state was going on. At the same time, it was a state 
of an extraordinarily powerful, centralized regime, very much a 
top down development model of the developmental state and these 
two kind of opposing logics were in tension, but kept together 
by a very strong center, a very strong central committee.
    It is my concern today that that balance has now been 
upset. That balance is now no longer holding and that is why I 
think this is a real structural concern, larger than simply 
something that a change of the cabinet is going to address.
    Predictions that the regime is about to fall have been 
around since at least since 2005. Actually, people were saying 
that in 1992. I was among those. So I think it is worth pausing 
and thinking about that this is a regime that still retains 
considerable strengths. It is a party of some 8 million people. 
It is a party that controls mass organizations and large 
endowment efforts. It is a party that, as we pointed out a 
number of times, along with its affiliates won 100 percent of 
the seats in the most recent election. So it is something that 
is unlikely to disappear with the first movement against it.
    It is also strong relative to its competition at home, 
particularly in terms of organized political parties. The 
regime has very systematically closed down political space so 
that opposition parties, civil society organizations, and 
independent media are not able to operate.
    There have been prior demonstrations. I particularly want 
to note, as I do in my written statement, the early Ethiopian 
Muslim demonstrations that were really quite remarkable. But a 
new type of demonstration or a new phenomenon in Ethiopia 
happened in 2015, particularly in the Oromo region. In Oromia 
protests began in part because of concerns about Addis Ababa, a 
master plan expanding into Oromo areas, but a much more 
structural kind of struggle for control, for power, for the 
Oromos to be able to control their own land, to control their 
own destiny.
    The pattern of Ethiopia's response to demonstrations in the 
past has typically been to deny there is a problem, to blame 
the opposition, or the diaspora, or Eritrea for fomenting the 
dissent and arresting lots of people, particularly young men in 
kind of sweeps and sometimes using live fire to clear the 
streets when they have perceived it as being necessary.
    Those same things happened in 2015 in Oromia, but 
surprisingly or at least contrary to past patterns, the 
demonstrations weren't demobilized. They continued. And in 
fact, they spread. They became larger. It was a real momentum. 
And so the tactics of trying to repress opposition, to repress 
dissent, didn't seem to be working any more.
    You mentioned the crackdown, the arrest of Bekele Gerba and 
Merera Gudina, somebody I know from my days at Addis Ababa 
University. And so the use of--the government succeeded in 
suppressing the demonstrations, but not really resolving the 
underlying state, the underlying concerns, the underlying 
grievances.
    Similarly, in the Amhara region, demonstrators were not 
dissuaded by the power of the regime.
    The state of emergency that was put in place, it was really 
an incredibly expansive state of emergency, has at least for 
now succeeded in lowering the level of violence, lowering the 
temperature, if you will. And if that was being used a first 
step in a larger more structural process of political reform, 
there might be other ways of thinking about the state of 
emergency, but I don't think that is the case.
    Let me just say a few things about why I think Ethiopia is 
at the crossroads, and then a few comments about U.S. policy.
    As I alluded to earlier, I think Ethiopia is really at the 
crossroads because this original bargain of 1991, a 
constitution that was decentralized and set up these regional 
states, at the same time a very centralized, top down kind of 
regime. But that has been knocked off balance and it is not 
clear how it can be put back together again.
    Part of the evidence for this is that there were elements 
within the Oromo People's Democratic Organization, the Oromo 
wing of the ruling party, that were at least looking the other 
way as the demonstrations were going on. Similarly, in the 
Amhara region, the Amhara wing of the ruling party supported 
some of the Amhara nationalists' ideas that were being advanced 
by the demonstrators. So this suggests that the ruling party 
really is beginning to, the elements of it are really beginning 
to question the direction of the center with unclear, where 
that will go. We haven't really seen that in 25 years.
    The short term path forward I don't think is particularly 
hard to see. The Ethiopian Government, if it was serious about 
reform would have to end the state of emergency. Perhaps larger 
than that, reduce the role of the armed forces and politics. In 
general; release political prisoners. You mentioned some of 
them. But not simply reform the civil society proclamation, but 
I think it needs to be scrapped and start over again. It really 
has prevented the kind of advocacy networks, people working on 
human rights and democracy that Ethiopia so desperately needs. 
Respect the political space of opposition so that the 
alternatives are able to speak. And in general, a process of 
dialogue with a broad range of actors, rather than a kind of 
the EPRDF will sort it out within itself, the kind of instinct 
that they often have.
    On U.S. policy toward the region, the first thing that I 
would note is that I think actually the U.S. needs to be quite 
modest in its assessment of its influence in Ethiopia. Many of 
my friends in the diaspora who are with me always disagree with 
me on this, but I don't think that the dynamics that are taking 
place on the ground within the ruling party and within the 
leadership are not because of what the U.S. is doing or not 
doing. These domestic politics, these regional constraints, the 
U.S. assistance has become less relative to the investments of 
China, Turkey, Saudi Arabia, and other actors.
    But I do think it is essential to speak clearly and plainly 
and publicly about Ethiopia's human rights record. The U.S. 
simply has to go on the record and explain why it is that we 
have grave concerns about the direction that the country is 
going and as a good partner, how we are looking for ways to 
engage the regime so that it can open up, so that it can have 
more political space and allow releasing the political 
prisoners and all those other things that I spoke about.
    It seems to me to be past time for the U.S. Government to 
shift its emphasis when thinking about Ethiopia from a kind of 
counterterrorism and regional security agenda. Those things are 
important. The Ethiopian military play very important 
peacekeeping roles, for example, in Sudan. But beyond that, 
there is a larger, longer term agenda that has to rest upon 
participation and rule of law. As a long-time partner of 
Ethiopia, I think the United States needs to shift its 
orientation in that way.
    Let me conclude there and I would just like to thank the 
subcommittee for this opportunity and look forward to any 
questions you may have. Thank you very much.
    [The prepared statement of Mr. Lyons follows:]
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                                ----------                              

    Mr. Smith. Dr. Lyons, thank you so very much. Mr. Horne, I 
regret that there are two votes that have been called. We have 
got about 5 minutes to get there. We will suspend briefly and 
come right back and you will be next on deck. So I apologize to 
you and to all of our distinguished witnesses for the delay. We 
stand in recess.
    [Recess.]
    Mr. Smith. The hearing will resume, and I yield the floor 
to Mr. Horne. Thank you again for your patience.

   STATEMENT OF MR. FELIX HORNE, SENIOR RESEARCHER, HORN OF 
                   AFRICA, HUMAN RIGHTS WATCH

    Mr. Horne. Thank you. Chairman Smith, Ranking Member Bass, 
thank you for holding this important hearing on the current 
situation in Ethiopia and for inviting me to testify. I am 
pleased to be a part of it.
    Ethiopia is a country of dual realities. Visitors and 
diplomats alike are impressed with the double digit economic 
growth, the progress on development, and the apparent political 
stability. But in many ways, this is a smoke screen. Many 
Ethiopians live in fear. The current government, the only one 
since 1991, runs the country with an almost complete grip on 
power, controlling almost all aspects of political, public, and 
often private life. Pervasive telephone and online surveillance 
and an intricate network of informants allow the government to 
quickly curb any threats to its control. It silences critical 
voices through the use of arbitrary arrests and politically-
motivated prosecutions.
    Ethiopia remains among Africa's leading jailers of 
journalists. If you are an independent journalist, you must 
choose between self-censorship, harassment or arrest, or living 
in exile. The government blocks Web sites. It blocks the 
Internet completely. It jams radio and television stations. In 
short, the state tightly controls the media landscape, making 
it extremely challenging for Ethiopians to access information 
that is independent of government perspectives. As a result, 
Voice of America, which broadcasts in three Ethiopian 
languages, has become an increasingly important source of 
information for many Ethiopians but the government has, at 
times, obstructed its broadcasts as well.
    The independent civil society groups, independent NGOs face 
overwhelming obstructions also. The 2009 Charities and 
Societies Proclamation has made obtaining foreign funding 
nearly impossible for groups working on human rights, good 
governance, and advocacy. As a result, many organizations have 
stopped working on human rights and good governance altogether 
to avoid problems.
    There have also been serious restrictions on opposition 
political parties. This led to the ruling coalition in the 2015 
election winning 100 percent of the seats in the Federal and 
regional parliaments. This is despite evident anti-government 
sentiments in much of the country, as the protests would later 
illustrate. The arbitrary detention of members and supporters, 
politically motivated criminal charges, and restrictions on 
financing ensure that political parties are constrained and 
largely ineffective.
    The state also systematically ensures that many of the 
country's 100 million citizens, particularly those in rural 
areas, are dependent on the government for their livelihoods, 
food security, and economic future. The government controls the 
benefits of development including access to seeds, fertilizers, 
jobs, healthcare, and humanitarian assistance, even when it is 
funded by the United States or other donors. While U.S. funded 
development assistance contributes to much needed poverty 
reduction efforts, it also adds to the repressive capacity of 
the government by bolstering Ethiopians' reliance on the 
government for their livelihoods.
    Now there is no evidence that the ruling party rigs 
elections because they don't need to. The population's 
dependence on the ruling party and the limits on opposition 
parties leaves many citizens, particularly in rural areas, 
little choice but to support the ruling party come election 
time. As one farmer in the Amhara region told me in July 2014, 
``We do not like the government, but we always vote for them. 
We have to because we get our seeds and fertilizer from them. 
During times of drought, we get food aid from them. If we don't 
vote for them, we can't eat.''
    He went on to tell me about his neighbor who voted for the 
opposition in the 2010 election and shortly thereafter was 
denied food aid, was denied treatment at a government health 
clinic, and eventually was displaced from his land for an 
investment project run by a government cadre.
    The justice system provides no check on the government. 
Courts have shown little independence during politically 
charged trials. Many opposition politicians, journalists, and 
activists have been convicted under the repressive 2009 
antiterrorism law and sentenced to lengthy prison terms. 
Acquittals are rare, credible evidence is often not presented, 
and trials are marred by numerous due process concerns. 
Mistreatment and torture are common in Ethiopia's many places 
of detention.
    So this begs the question: What avenues are left in 
Ethiopia to express dissent, to question government policies, 
or to voice concern over abusive practices, and how can the 
United States help strengthen human rights and democracy in 
Ethiopia?
    I speak to you to today 16 months after large-scale and 
unprecedented protests started in Ethiopia's largest region of 
Oromia in November 2015, spreading to the Amhara region in July 
2016. Ethiopian military and police cracked down on these 
largely peaceful demonstrations, killing hundreds and detaining 
tens of thousands as we have discussed. The protests were a 
predictable response to the systematic and calculated 
suppression of fundamental rights and freedoms that I have 
described here today.
    On October 2, the protest movement took a devastating turn. 
In Bishoftu, in Ethiopia's Oromia region, security forces 
mishandled a large crowd at the Irreecha cultural festival 
causing a stampede that killed scores of people as they fled 
security forces. In the days that followed, angry mobs of youth 
destroyed government buildings and private property. Ethiopia 
was on the brink of chaos. One week after the Irreecha tragedy, 
the government announced a state of emergency, that was 5 
months ago today, that remains in place. It prescribed sweeping 
restrictions on a broad range of actions and goes far beyond 
what is permissible under international human rights law. It 
signaled a continuation of the militarized response to the 
expression of grievances. While the state of emergency has 
halted both the destruction of properties and the protests 
themselves, underlying grievances clearly remain. No one should 
deny there are serious risks, that more unrest could occur.
    Since imposing the state of emergency, the Ethiopian 
Government has repeatedly committed publicly to undertake 
``deep reform'' and engage in dialogue with opposition parties 
to address grievances. In short, the authorities are saying the 
right things. But the only changes the government has made so 
far are largely cosmetic and fall dramatically short of the 
protesters' calls for the protection of basic human rights.
    The continuation of the state of emergency, which further 
crushes the space for free expression and divergent views of 
governance, is not conducive for the open dialogue that is 
needed to address Ethiopia's ongoing crisis. The government 
announced that it arrested over 20,000 people since the state 
of emergency began, and although there has been little 
corroboration of these numbers, it could be higher. These mass 
arrests along with politically motivated trials of key 
opposition leaders, like Merera and Bekele, reinforces the 
message that the government is continuing along the path of 
suppressing dissent by force and not engaging in genuine and 
meaningful dialogue with opposition groups and citizens.
    The Ethiopian Government's responses to all of these abuses 
is consistent. The allegations are routinely denied without 
meaningful investigation, the government claiming they are 
politically motivated, while simultaneously restricting access 
for independent media and human rights investigators.
    While we are speaking today about the lack of 
accountability over the brutal crackdown in Oromia and Amhara 
over the last 16 months, Ethiopians in other regions have also 
been victims of serious abuses, without any meaningful 
investigations by the government. For example, Human Rights 
Watch documented possible crimes against humanity committed by 
the Ethiopian Army in 2003 and 2004 in the Gambela region. 
There was no credible investigation into the abuses. In 
Ethiopia's Somali regional state, the Ethiopian military 
committed war crimes and possibly crimes against humanity 
between mid-2007 and 2008 during their counterinsurgency 
campaign against the ONLF, the Ogaden National Liberation 
Front. Since that time, there have been serious abuses 
committed in the Somali region by the Liyu police. Again, no 
meaningful investigations have been undertaken into any of 
these alleged abuses in the Somali regional state.
    International scrutiny of Ethiopia's rights record has also 
been lacking despite its June election to the U.N. Security 
Council, and its membership on the U.N. Human Rights Council. 
Ethiopia has refused entry to all U.N. Special Rapporteurs 
since 2007, except for the Special Rapporteur on Eritrea. In 
total, there are 11 Special Rapporteurs that have outstanding 
requests for access to Ethiopia.
    Despite abundant evidence of serious and growing repression 
by the Ethiopian Government, the U.S. Government has been a 
muted critic. Quiet diplomacy has proven ineffectual. It has 
coincided with the dramatic downward spiral in human rights and 
a serious constriction of political space leading to the crisis 
Ethiopia is in today. It is time for a new U.S. approach to 
Ethiopia in which Congress plays a leadership role in seeking a 
more balanced policy and requiring more deliberate oversight as 
it has done in other countries in crisis, including the DRC and 
Egypt.
    As a starting point, Members of Congress should speak out 
strongly and publicly against abuses by the Ethiopian 
Government. House Resolution 128 and the resolutions introduced 
last year are steps in the right direction and contain many 
important elements. While non-binding, they are impactful 
because they let the Ethiopian Government know there are 
repercussions for brutality against their own citizens, 
brutality that undermines U.S. priorities in the Horn of 
Africa, including security, development, and economic growth. 
These partnerships are dependent on long-term stability in 
Ethiopia. Opposition to the ruling party's repressive rule, as 
witnessed in the last 16 months, is a glaring indication that 
Ethiopia's governance model marked by lack of respect for basic 
rights, is incapable of ensuring that stability.
    It is crucial that the U.S. makes it clear that if Ethiopia 
is going to remain a strong U.S. partner, it needs to open up 
legitimate political space and allow for critical voices to be 
heard. Members of Congress can and should call for the release 
of all political prisoners, including Bekele and Merera, 
because they should be part of any credible dialogue between 
the government and the opposition parties.
    Members of Congress should also call for the release of all 
journalists unjustly jailed and call for the repeal or 
substantial amendment of repressive laws used to stifle 
critical voices. Now any meetings with the Ethiopian Ambassador 
to the U.S. should include these points, as should any meetings 
with other Ethiopian officials, whether in DC or elsewhere. As 
the FY18 budget process gets underway, U.S. support to the 
Ethiopian Government should be conditioned on making progress 
in these and other areas of concern.
    Members of Congress should use available opportunities to 
tell Ethiopia to stop hiding its own human rights record from 
international scrutiny. As a member of both the Human Rights 
Council and the Security Council, Ethiopia should cooperate 
fully with U.N. special mechanisms, in particular the 
rapporteurs on peaceful assembly and torture.
    As expressed in House Resolution 128, Members of Congress 
should reiterate the call of the U.N. High Commissioner for 
Human Rights, the African Commission on Human and Peoples' 
Rights, and others, for an independent international 
investigation into the crackdown in Oromia and Amhara. Such 
action will send a powerful message to the Ethiopian Government 
that its security forces cannot shoot and kill peaceful 
protesters with impunity. It will also send an important 
message to the victims and families, including those here in 
this room, that their pleas for justice are being heard.
    International legitimacy is very important to the Ethiopian 
Government. It wants to be a key player on the international 
stage and condemnation of its human rights record contradicts 
that image. So consistent, sustained, and vocal pressure is 
critical.
    I will close by saying that I am aware of concerns 
expressed by some in the administration, and even here in 
Congress, that a more public stance on Ethiopia's domestic 
situation might undermine the bilateral partnership between 
Addis Ababa and Washington. But the United States has often 
underestimated its own leverage and been overly cautious as a 
result. Some of Ethiopia's international partners have made 
strong public statements in the last year and these statements 
have not undermined their strategic partnerships. Far from it. 
The U.S. may need Ethiopia, but Ethiopia needs the U.S., too. 
The U.S. should send a strong signal of support to the many 
Ethiopian citizens and Ethiopian-Americans who seek the 
protection of their rights, greater political space, and 
democracy but whose fight for dignity and freedom has been 
crushed time and again. Thank you.
    [The prepared statement of Mr. Horne follows:]
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Smith. Mr. Horne, thank you very much for your very 
incisive testimony.
    I will begin the questioning. You mentioned that U.S. 
policy has been muted. I can't tell you how welcoming that 
assessment is because it traverses both the Bush administration 
and the Obama administration since at least 2005 and before. I, 
my staff, and others in a bipartisan way have raised the issue 
that everything post-9/11 can't be antiterrorism and regional 
stability. Human rights ought to be at the core of what we say 
and how we condition our funding. So thank you for that 
refreshing and important admonishment to the new administration 
because the last couple have not gotten it right and that is 
unfortunate. I say that because we held hearings when we heard 
from the Ambassador and high officials in the Bush 
administration and I expressed not only my displeasure, but my 
deep concern over unwitting complicity. Looking the other way 
is complicity. And the same thing has happened, unfortunately, 
under the Obama administration.
    Now we have provided some $820 million between 2015 and 
2017 for health, food, and development aid to Ethiopia. You 
have pointed out in the testimony that people have been denied 
access to medical care and food, humanitarian assistance if 
they were not part or supportive of the regime.
    Has there been a response from the U.S. Government when 
that has happened? Are they aware of it? Have we pushed back 
and said wait a minute, we are the prime providers of that aid. 
We want to make sure it gets to the poorest of the poor or 
those who are at risk without any kind of political pre-
condition.
    Secondly, you talked about the VOA and I think your point, 
all of the points that have been made about the journalists and 
being one of the worst areas where journalists are censored and 
the idea of self-censorship is a terrible consequence because 
that which is never written because of fear means that 
obviously human rights abuses go unscrutinized.
    But you mentioned the VOA at times is inhibited. Is that 
through jamming? How do they do that? Has it happened recently? 
What has been the response of the U.S. Government when that has 
happened? Because obviously, we should speak out loudly and 
clearly. Perhaps Dr. Lyons, either of you might want to speak 
to this, but the idea of hiding in plain sight, potential 
crimes against humanity and other kinds of serious human rights 
abuses, this is what adds to the shock and horror of that is 
that in plain sight of the African Union which is based in 
Addis, as we all know. It seems to me that a showcase city 
ought to have a showcase government that respects the dignity 
of everybody's life and not just those that are supportive of 
the regime. So if you could.
    Mr. Horne. Yes, thank you for those important questions. On 
the misuse of development assistance, Human Rights Watch 
documented this in 2010 in a reported called ``Development 
Without Freedom'' and it was focused on how the government uses 
the benefits of development assistance to control the rural 
population. And the response from donors, not just in the 
United States, but all of Ethiopia's Western donors was very 
much one of yes, that might be happening, but it is not 
happening on a very wide scale and the benefits of development 
outweigh these potential problems.
    There was initially some discussion about them potentially 
investigating the extent of this problem, but we have not seen 
any evidence that it has been investigated. And it is a very 
tricky thing to investigate, of course, not easy. But I can say 
in that time, in the interviews that we do about other human 
rights abuses, it comes up so often that you do not get--things 
I mentioned, food, seeds, fertilizer, everything, unless you 
are a member of the ruling party. It used to be that as long as 
you weren't considered to be the opposition then you wouldn't 
have problems, but now it seems to be much further, and lots of 
individuals who seem to genuinely avoid being involved in 
politics, including refusing to join the ruling party, have 
reported not being allowed access to food aid, to the seeds, 
the fertilizers.
    In Ethiopia and in many parts of the country, poverty is 
still a big problem and so yes, they don't have anything to 
fall back on. So it means they are really dependent on 
government. So it is definitely something that needs to be 
investigated more, because it is a big problem.
    On the Voice of America question, I think there are a 
number of ways that Ethiopia uses to prevent international 
broadcasters and this applies to others as well, including some 
of the diaspora stations that broadcast into Ethiopia, but yes, 
jamming is a big problem; jamming of radio and also jamming of 
television stations for some of the diaspora stations. But 
also, denial of work permits, a lot of the international 
broadcasters report having great difficulty having people on 
the ground. We talked to many individuals who were sources of 
information, who were interviewed on VOA and other stations who 
were arrested as a result. So the government uses various 
techniques to ensure that VOA can't operate.
    I can't comment on whether VOA or the other stations self-
censor, but this is part of the strategy. If you make it 
difficult to do your media, and jamming and other tactics 
increase after you have reported on something very sensitive or 
after individuals were on VOA that the government doesn't 
approve of, the national tendency would be a self-censor. I am 
not saying VOA is self-censoring. I can't speak to that, but 
that is the strategy that they use.
    Mr. Lyons. I will just state one or two brief comments on 
the African Union. It came up in perhaps a more dramatic 
context in the mid-1970s during the period of Red Terror in 
Ethiopia where the OAU again, different organization, different 
era, was there while horrific street violence was taking place. 
This was, of course, before this regime came to power.
    The African Union is a growing organization that is 
increasingly talking about things like governance, human 
rights, and democracy. I think it should be encouraged. I think 
the United States does have important bilateral relations and 
has an Ambassador to the AU and that is all to the good. But 
the Africa Union is also an organization of heads of state who 
typically do not want to look too closely at the governance of 
neighboring states and to the extent that they do, it is often 
through the kind of quiet diplomacy that we were referencing 
earlier with the United States. It rarely becomes public and 
that in and of itself is part of the problem.
    Mr. Smith. Before yielding to Ms. Bass, I just point out we 
have got a very sophisticated report from the Embassy which I 
suspect has been produced in whole or in part by their lobbying 
organization which was set up, funded, beginning on January 1 
by SGR LLC. And if the filings we have seen are correct, we are 
talking about a $1.8 million year cost for the lobby.
    And you know, having been on this committee now 36 of my 37 
years, I have to tell you that I remember which Nicolae 
Ceausescu, one of the most brutal dictatorships with a 
Securitate, the KGB equivalent, every year his lobby firm would 
come around with bullet points and made them look like they 
were Mother Theresa. It was just incredible.
    So I think we all need to look at that submission very 
carefully, but the lobby firms are very adroit at putting 
things together that obscure very often the heinous human 
rights abuses that we are trying to highlight.
    Ms. Bass.
    Ms. Bass. Wow. I actually wanted to refer to it on the next 
panel because I want to ask questions based on the memo.
    But I believe, Mr. Horne, you were saying that other 
countries, the U.S. is concerned because obviously Ethiopia is 
a strategic partner and you were referring to other Western 
countries that have not ruptured their partnership because they 
have been critical and perhaps Dr. Lyons would like to respond 
to this as well. So I wanted to hear from both of you about 
other countries in the international community that have 
significant partnerships with Ethiopia and how they are 
responding to the situation.
    Mr. Horne. I think maybe there are two examples that I 
would speak to. One is the European Parliament. In January of 
last year, they passed a very strong resolution that condemned 
Ethiopia for some of these human rights abuses. It was the 
strongest thing we have seen out of the European Parliament in 
many, many years on Ethiopia. And since that time, the 
relationship between Europe and Ethiopia has strengthened. 
There is lots of assistance on migration, on supporting 
refugees, on development which has continued to go into 
Ethiopia, so it doesn't seem to have had a particularly 
negative effect of those sort of strategic partnerships.
    The more recent example is Germany. Chancellor Merkel 
visited Ethiopia just after the state of emergency had been 
called and in a public setting made a very strong statement 
that talked about the importance of political space, to open up 
space for the opposition. That was a very strong thing to say 
in public, in Addis and they didn't chase Germany away.
    In fact, the opposition dialogue that is currently under 
way and Germany is playing a leading role in facilitating that. 
So yes, I think there are lots of examples to point to that 
shows that yes, they are not. As angry as they get and the 
response with these briefing papers about how we are all wrong 
about the human rights abuses, they do get angry, but at the 
same time they are very strategic and they realize that U.S. 
assistance or Germany assistance in that case is very important 
to their country.
    Ms. Bass. Dr. Lyons.
    Mr. Lyons. My point will be just on the more general 
question of who has leverage over who. Typically, Ethiopia says 
listen, we are not going to take your conditions. We don't 
accept your human rights, State Department's human rights 
report or whatever it is that they are unhappy about. And 
because there are things that the United States wants to work 
with Ethiopia on, let us talk about the peacekeepers in the 
Sudan. That position is never pushed.
    I think I agree that there is a lot more room to say we are 
not going to back down just because you are angry at us, but 
rather, as a partner who wants to remain engaged with you for 
the long term, as a long term friend, we have to say it again, 
and we have to say it even more clearly because we think it is 
so important to us. So I guess without--you had the specifics. 
I can think of the Europeans as well. Germany is another good 
case. So I would share those.
    Ms. Bass. Are there any African countries?
    Mr. Lyons. Do you have a quick----
    Mr. Horne. I mean I wouldn't say--I can't think of any 
African countries offhand that have made strong statements on 
Ethiopia. I mean the Africa Commission on Human and Peoples' 
Rights called recently for an investigation. I mean that is 
probably the closest thing we have.
    Ms. Bass. So you said then that statements have been made. 
The question is what results were produced because of that?
    Mr. Lyons. I am going to use Mr. Horne's example. I do 
think that, while I have concerns about it being not a deep 
enough process of reform, the fact that the EPRDF is now 
engaging in discussions with a fraction of the opposition is a 
good thing. It is perhaps a small step in the right direction. 
It is not enough and so on. And I do think that while you never 
know what causes what, that it did follow some tough statements 
from European leaders and particularly in Germany. So at least 
it is consistent to say it was after Germany made a tough 
statement that EPRDF began to talk to elements of the 
opposition. The causation, of course, would be impossible to 
tease out.
    Mr. Horne. I would just say I think it is very difficult 
to, because there hasn't been that many strong public 
statements, it is very difficult to ascertain whether that is 
the correct strategy on Ethiopia.
    What is clear is that the quiet diplomacy hasn't worked. We 
have been talking about this for 10 years, since 2005. It 
clearly hasn't worked. So it is time to try something new. So I 
think this is something worth exploring.
    Ms. Bass. So I know that in many times in Los Angeles, my 
constituents would like for me to support the termination of 
all foreign aid, even humanitarian assistance. I have 
difficulty with that notion because I am concerned that, you 
know, their point of argument is that it never gets to the 
people that it is supposed to get to. And I guess what makes me 
fearful with that is that I don't want to play into forces here 
that are hostile to foreign aid and if it gets to some, then is 
that not better than others.
    And I think both of you made a statement that you thought 
foreign aid should be conditioned on making progress. One, do 
you think the foreign aid gets to the people, to some of the 
people who need it? And then two, if it is conditioned on 
making progress, number one, what would those conditions be and 
how would anybody verify?
    Mr. Lyons. I do not support ending all aid and particularly 
humanitarian aid because I do think it makes a tremendous 
difference on the ground. There were some 10 million people in 
Ethiopia following the El Nino drought of 2014 or 2015 who were 
able to survive, in part, because of the generosity of the 
United States and other donors.
    An important part of our aid package is for things like 
HIV/AIDS and PEPFAR money and education programs. You can go 
out to regional medical centers and see lots of things that 
USAID has done. You can see the work on regional universities 
and other things.
    We have a very, very small democracy and governance budget 
in Ethiopia. I think that there could be places where that 
could be used more creatively to try to get momentum behind 
some of these larger processes of all party dialogues and of a 
real discussion of how this country goes forward. Those 
discussions would not be possible unless there were things like 
release of political prisoners and the opening of political 
space. I think that that could be a place where there is 
leverage.
    The other place of leverage I think that is probably 
stronger and more available to use is diplomacy. Ethiopia wants 
to be a respected member of the world community. It matters 
greatly. They really, really wanted President Obama to visit. 
They thought that was an important way for them to be 
recognized as the most important state in Africa or something 
like that. And that then you don't necessarily get that 
recognition unless certain conditions are met.
    Ms. Bass. You know, there is the role that Ethiopia played 
in the negotiations with South Sudan.
    Mr. Lyons. Very important.
    Mr. Horne. Yes, I would certainly echo all of that. I think 
that Human Rights Watch does not call for aid to be cut off to 
Ethiopia. What we have called for is increased monitoring of 
the aid that is given, so the positive benefits of the aid can 
be experienced, but without some of the negatives. And right 
now what we see is that there is all of this money being put 
in, but there is not a lot of effort to really monitor the 
negative aspects like this increased repressive capacity that 
it gives the government.
    Ms. Bass. One other question I had as I know my colleagues 
want to ask questions, too, is that I have heard that the 
Ethiopian Government is feeling less pressure with the new 
administration in thinking that there is not going to be a 
concern considering that the positions that are being put out 
there are really more inward looking, concerned about what is 
happening here and not a concern so much on the international, 
especially with little to no mention of Africa at all.
    So I want to know what you believe in terms of the signal 
the new administration is sending to Ethiopia.
    Mr. Lyons. It is a very difficult to know where this 
administration is planning to head toward Africa, in part, 
because the personnel just aren't there yet and the kind of 
road map, the budgets and so on are unclear. The way I would--
signs that I would look for is that on the one hand if this 
administration has heightened concerns about terrorism and 
counterterrorism, that there is a way to think that Ethiopia 
then would be able to get more attention in Washington because 
it would be able to play that role or at least position itself 
to play that role.
    But on the other hand, if USAID gets cut in a dramatic way, 
that presumably would be something that falls on Ethiopia as 
well as other countries. And so I just find it very difficult 
to know which way things will go with regard to U.S. policy 
toward Ethiopia.
    Mr. Horne. Yes, agreed. I think there is still a lot of 
importance to U.S. relationships and partnerships with Ethiopia 
that have been there for a long time and will continue to be 
there on security, on peacekeeping, and potentially development 
assistance.
    Ms. Bass. Is there oil in Ethiopia?
    Mr. Horne. That is a good question. Yes, there is believed 
to be some oil and natural gas in the Somali region, 
definitely. But I think when we talk about the importance of 
benchmarks and human rights measures and conditioning some of 
this support, it is also because you all saw what happened last 
year, you can't have a partnership on security, on development, 
on delivering humanitarian aid when people are protesting when 
a country almost descends into chaos. So respect for human 
rights actually makes development and security assistance much 
more effective which I think is an important part of this.
    Mr. Smith. Before yielding to Mr. Garrett, without 
objection, a correspondence from a coalition of NGOs, diaspora 
groups that support this effort, they also call for the passage 
of House Resolution 128, without objection will be made a part 
of the record.
    Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman. I am just curious if 
either of these gentlemen could enlighten us as to what sort of 
accountability we think has happened as it relates to the 
crackdown on dissenters that we saw just last year in the 
region and then on top of that, and obviously, I have had your 
present testimony of the transparency as it relates to that 
accountability.
    Mr. Horne. Yes. I mean there were some calls from various 
countries for an international investigation. And Ethiopia's 
response to that always is we can investigate ourselves. We 
don't need the help of the international community. The fact of 
the matter is they haven't investigated. So the Human Rights 
Commission, which is the body that would be mandated in doing 
that investigation, they presented an oral report to Parliament 
in June of last year, the day that the Human Rights Watch came 
out with a big report into the protests in Oromia. And they 
largely exonerated the Federal security forces. No one knows 
who they talked to. No one knows how they arrived at a 
conclusion that was so radically different from what everyone 
else has found who has looked into the issue. And we have 
spoken to many diplomats, foreign diplomats in Addis, but also 
Ethiopian Government officials, and no one has seen a written 
version of that report.
    So in short, it doesn't seem that there was any meaningful 
investigation that was undertaken. There continues to be more 
promises with more investigations, but we haven't seen anything 
to date.
    Mr. Lyons. If I could add just a couple of sentences on to 
that because there is a media piece to this as well. The 
Ethiopian Government is often very unhappy when groups like 
Human Rights Watch and others come up with estimates on how 
many died or what the casualties were and so on and so forth. 
But there were very few other estimates, in fact, because the 
journalists cannot go out and ask questions and talk to people 
and go to the emergency rooms or whatever it is to get a handle 
on--we are here on the ground and we think that Human Rights 
Watch has overestimated it, but there is nobody on the ground 
collecting that with credibility. And so that is a further 
problem.
    The restrictions on the press mean that that type of 
restriction on accountability.
    Mr. Garrett. Mr. Chairman, I want to preface this by saying 
that we have had very few allies in some regards better than 
Ethiopia as it relates to combatting terrorism, the number of 
peacekeepers that the Ethiopians have contributed to global 
missions and I want to hat tip Ethiopia for that.
    Now as an editorial aside, I will tell you that one of my 
great complaints is that I think sometimes the United States 
participates in creating vacuums vis-a-vis regime change 
initiatives without contemplating who will fill said vacuum 
upon the creation of the vacuum.
    What is the state? What we have here in one person's 
estimation is a nation of Ethiopia that on the one hand does 
wonderful things to be integrated into the world community and 
on the other hand stymies any freedom of the press and we know 
is certainly very vigorous on cracking down on dissent.
    Is there even a viable opposition that would be an entity 
with whom we could do business in Ethiopia just by your 
estimate? Because again, the worst thing I think we can do, 
look at Libya pre- and post-Ghadafi. Look at Syria. Look at 
what happened in Egypt with Sisi sort of stepping in and 
creating stability where we don't know if we would have a 
Morsi, but I contemplate that it might be far worse. Is there a 
viable opposition at all?
    Mr. Lyons. The way I would frame that question is that 
there are a number of small parties and civil society 
organizations that, at great personal risk, have continued to 
operate within Ethiopia, but they have been marginalized by 
systematic actions by the regime.
    The way that I would put it about the vacuum, however, 
though is that if the EPRDF is a strong regime, which in some 
ways it is, 8 million members of the party, 100 percent seats 
in the Parliament, one of Africa's most effective militaries in 
peacekeeping and so on and so forth, double digit growth, it 
may also be a very brittle party that once challenged could 
very quickly, the veneer collapses and the underlying 
structures cannot stand. So that would be the concern I would 
have for a vacuum, that if the ruling party can't hold it 
together because it is under too much pressure, then what? And 
so it is not that we need to put pressure on----
    Mr. Garrett. I know I am interrupting, but with all due 
respect, that is my question. Then what? If the ruling party 
fractures, and there is a vacuum, who rushes in to fill that 
vacuum?
    Mr. Lyons. Very hard to know. My best expectation or my--it 
is really a guess rather than even a very strong conclusion is 
that the organizations in Ethiopia that have the ability to 
mobilize are one, ethnically-based political parties that are 
part of the ruling coalition, so some of the power might 
gravitate back to the ethnic regions and it will be weaker 
centrally; and two, the Ethiopian military, which is very, very 
difficult to get a bead on. And typically, historically has 
kept out of politics, but in the state of emergency, it is much 
more directly in politics, the command centers that are part of 
the state of emergency are Ethiopian military command centers. 
And so those would be two possible dynamics. One more toward 
autonomy and two, a greater role for the military.
    Mr. Garrett. Mr. Horne?
    Mr. Horne. Yes, it is a difficult question for us to 
answer. I guess what I would just point to is that there has 
been a--in my statement I talk about this, that there are a lot 
of tactics they have used to decimate the opposition to ensure 
that the opposition is not effective. And quite often when it 
gets to be hundreds of protesters over the last year and when 
you ask them about how they see the opposition, they don't see 
the opposition as being terribly effective. They don't see the 
opposition being able to represent their views in any sort of 
form.
    Mr. Garrett. So Mr. Chairman, I would yield back in a 
moment. I want to be very though. My concern is that in pushing 
Ethiopia to be a better actor as it relates to openness, 
freedom of the press, etcetera, that we accidentally create a 
vacuum that creates chaos beyond that which we currently 
imagine. So everybody, I think, on both sides of the aisle, 
wants to see free and fair democratic societies across the 
globe, but sometimes if we push and something falls off that 
ledge, what steps to fill the vacuum is not any better than the 
one that precedes and oftentimes, unfortunately, is worse.
    Mr. Smith. Mr. Garrett, thank you very much. The gentleman 
from New York, Mr. Suozzi.
    Mr. Suozzi. Thank you, Mr. Chairman. I want to echo some of 
the things that Mr. Garrett was just talking about. I am new to 
this party. I am a freshman member and this is a new area for 
me as well as a member of this committee.
    But my big concern in the world today is not so much this 
country versus that country or this ideology versus that 
ideology, but it was described in Tom Friedman's recent book of 
control versus chaos, places that are stable versus places that 
are unstable.
    And so many places in the world today that were once 
propped up by the Soviets or by the Americans during the Cold 
War that are average or sub-average governments or that are 
either incompetent or corrupt or just lack resources, are not 
able to survive in the current environment because it is easy 
to be, as he described, a breaker in the world as it is to be a 
maker.
    And a lot of places end up with, because of climate change 
and the droughts such as you are experiencing in Ethiopia with 
80 percent of the people involved in agriculture and these 
terrible droughts and so many people are suffering and then 
they move into the cities and they are looking for a better 
life, but they can't find it there and there is civil unrest 
and it becomes political foment and we have gone from 35 
million refugees in the world to 65 million refugees in the 
past 10 years.
    And so if there is a movement to make this change, but as a 
result there is terrible unrest and de-stability that takes 
place in the country as a result, you have got another hot spot 
and another source of refugees in the world that have really 
few places to go.
    So what should we be looking at to help Ethiopia to not 
only address some of the concerns that you were testifying 
about, but also just to be stable in this world where there is 
so much instability?
    Mr. Lyons. The answer, one is broadly and then a little 
more precisely. I think another way of thinking about the 
concern in Ethiopia is not kind of a binary, is not control 
versus chaos, but rather in a context of rapid change, 
including within Ethiopia beginnings of new forms of 
development, but in a time of rapid change and without deeply 
embedded institutions and rule of law, is that the path to 
chaos? In other words, what you need is to have a political 
opening to better manage the process of change so you don't get 
to chaos.
    I certainly agree and many Ethiopians have gone through 
periods of chaos and have seen neighbor states go through 
chaos. That is not the desired end point. The question is if 
the Ethiopian Government does not recognize the challenges that 
face it, is it more likely to lead to that chaos or can a 
process of opening the regime up better manage that threat?
    I do think there are ways to open it up in terms of 
releasing political prisoners, of allowing these opposition 
parties to operate, and other things that I listed in my 
testimony. That does not mean that the regime is going to 
collapse. This isn't regime change. This isn't going in and 
bombing Benghazi or sending troops into Iraq. This is getting 
them to provide space so that Ethiopians who care about 
democracy and human rights are able to speak about those 
things. And it would be a very, very precariously perched 
regime that thought that that was what was going to lead to 
chaos.
    The Zone 9 bloggers are an example of that. A young group 
of Ethiopians who blogged in a way that was critical of the 
regime and the regime was very, very unhappy about that and 
regarded them as criminal. If you are worried about a group of 
young people who are blogging, when you have just won 100 
percent of the seats in Parliament, you have the strongest 
military in sub-Saharan Africa or one of the strongest 
militaries, there is a disconnect there. Why are you so worried 
about being criticized, if in fact, you are the control and not 
the chaos?
    Mr. Horne. Yes, I mean I think this isn't the first time 
there has been sort of this protest in Ethiopia. We said it is 
unprecedented, the scale of the protest was unprecedented and 
the scale of the brutality was unprecedented. But under this 
government there has been protests, movements in the past, and 
the government's response to that is to crush it through force. 
And it has worked. That approach has worked. It didn't work 
last year. And for so many people that I interviewed who were 
out there, when they faced bullets, when they saw their friends 
being shot and killed, when they faced tear gas, arrests, 
torture, and detention, it just emboldened them further.
    So if we care about Ethiopia's stability and we all do, 
everyone agrees, we want Ethiopia to be a stable, long-term 
partner, respect for human rights is core to that, is crucial 
to that. This is not about a vacuum of which party can take 
over post-EPRDF. That is not what we are talking about. We are 
just talking about basic respect for human rights which will 
keep Ethiopia stable and will ensure that it can be a valuable 
partner for the United States for many years.
    Mr. Suozzi. Thank you very much.
    Mr. Smith. Thank you, we will have some additional 
questions that all of us will submit for the record, but thank 
you for your tremendous input to this subcommittee and for your 
leadership for so many decades.
    Mr. Lyons. Thank you.
    Mr. Horne. Thank you.
    Mr. Smith. I now would like to welcome our second panel 
beginning with Ms. Seenaa Jimjimo who was born in South Oromo, 
in Ethiopia. From a very young age, she grieved over the 
injustice she saw growing up and studied political science in 
the hopes of becoming the solution.
    While in school, she served as president of the African 
Student Organization and assistant executive director for the 
Oromo Community Association of Chicago. Currently, she is 
president of the Coalition of Oromo Advocates for Human Rights 
and Democracy and is an environmental health inspector as well.
    We will then hear from Tewodrose Tirfe, who is one of the 
founding members of the Amhara Association of America, an 
organization dedicated to organizing Amhara people and a 
refugee who came to the United States in 1982. He has worked 
with international human rights organizations to bring 
attention to oppression of Amharans and worked to engage policy 
makers and raise awareness of humanitarian issues in Ethiopia 
that advocates for a policy that ensures that American 
interests and moves Ethiopia on the path of democracy. He also 
works as a senior network engineer.
    We will then hear from Mr. Guya Abaguya Deki who is a 
torture survivor from Ethiopia. He contracted polio when he was 
3 years old and was raised in an orphanage. He was an 
outstanding student and became an activist for disability 
rights and the general manager of the Ethiopian National 
Association of the Physically Handicapped. Ethiopia's ruling 
party tried to force him to join the party and when he refused, 
they arrested him several times and dumped him in the jungle 
area with his wheelchair believing that hyenas would attack him 
and kill him. Miraculously, Mr. Deki survived, came to the 
United States in 2003, and was granted political asylum in 
2014.
    We will then hear from Mr. Yoseph Tafari who was born and 
educated in Ethiopia where his social and political activism 
forced him to flee to Khartoum, Sudan in 1976. During his time 
in Sudan he successfully organized the Ethiopians who were 
exiled in that country to have the full protection of the 
UNHCR. Since coming to Colorado, he has worked as a project 
manager in constructing the largest Ethiopian Orthodox church 
ever built outside of Ethiopia and co-founded the Ethiopian 
Drought Relief Aid of Colorado, an advocacy group bringing 
awareness and much needed aid to the victims of the Ethiopian 
famine. He also owns a printing company.
    I would like to now yield to our distinguished first 
witness. I would point out to our witnesses, I have been called 
to a leadership meeting at 4:00. I have to be there for it and 
I apologize. I will read your testimonies very carefully. Ms. 
Bass and I both invited you to be here, so we both, all of us 
on the subcommittee want to hear you, so I apologize. When I do 
depart, it is not a lack of interest, I can assure you.
    Please proceed.

STATEMENT OF MS. SEENAA JIMJIMO, PRESIDENT, COALITION OF OROMO 
            ADVOCATES FOR HUMAN RIGHTS AND DEMOCRACY

    Ms. Jimjimo. Thank you, Chairman Smith, Ranking Member 
Bass, and members of the subcommittee for this opportunity. I 
must say my presence here is historic and I am beyond honored 
for the opportunity to speak before you here.
    Today, I acknowledge the suffering of many Ethiopians like 
the Amharas. I am here to speak about three generations of 
pain, agony, and political oppression against the Oromo people. 
My grandfather saw massacres, my father and uncles served in 
prison camps as do my younger brothers and sisters today. This 
is not just the story of my family, rather the story of Oromos 
who constitute over 40 percent of the Ethiopian population and 
occupy the most productive lands. Oromia is the backbone of the 
Ethiopian economy, with the key export items: Coffee, gold, 
other precious minerals. Yet, the Oromo are politically, 
socially, and economically marginalized people.
    I must also acknowledge that while hundreds are better 
qualified than I could be here today, I bring a unique voice. 
To begin with, I am a follower of Wakefanna, the much less 
known indigenous religion. I am also a woman, the primary 
victims of human rights violations you often never hear about. 
And I represent a generation that knows, understands, and lives 
in two different worlds, my birthplace and America, land of 
opportunity.
    To speak the truth, I highly doubt my own people, for whom 
I am fighting day and night, will value me equal to my brother 
who cares less about them. It is with this understanding that I 
not only value the American interest in the region, but believe 
it is necessary that the American mission succeed because it is 
the only voice for women like me. Therefore, I want to assure 
this House that American interest is my interest and the 
interest of so many Oromos.
    Twenty-six years ago, in June 1991, Assistant Secretary of 
State of Hermann Cohen testified in front of House Committee on 
Foreign Affairs. He said, ``No democracy, no support.'' For 26 
years, Ethiopia has become an open prison for so many 
Ethiopians, particularly Oromos, who make the overwhelming 
majority of the prison population. Today, 26 years later, under 
the code name of ``state of emergency,'' a husband watched his 
wife and daughters get raped, sons taken away or killed.
    Even though I myself have lived under this terror and been 
watched and beaten by this government, what is new is the use 
of this new term ``state of emergency,'' which allowed it to 
shut off the small means of communication to the outside world. 
In Ethiopia, as others before me have said, all sorts of media 
is either banned or greatly curtailed. Social media is 
punishable by up to 5 years in jail, all rights organizations 
banned, requests by U.N. for independent investigations are 
denied, and U.S. concern is ignored. Moreover, although as 
early as January 2016, the Ethiopian Government admits to the 
use of excessive force, no single individuals have been brought 
to justice. Now 3 years later, nothing has changed except the 
implementation of the most brutal system of killing, silencing 
innocent people under the cover of martial law. For Oromos, the 
torture is unending, even as they flee Ethiopia. It follows 
them wherever they go in the region. As a proud partner to the 
U.S. War on Terror, the Ethiopian Government can go to Kenya, 
Somalia, Sudan, Yemen, and even as far as Saudi Arabia to bring 
back those who they consider threats to their power.
    While I understand the need for strong and dependable 
partners in a volatile region too close to extremism, reliance 
on a minority-dominated government hailing from a mere 6 
percent of the population, cannot be sustainable and would 
rather endanger American interests. A country of 100 million 
people inhabited by 82 different ethnic groups cannot survive a 
fake democracy or federalism.
    Mr. Chairman, a blind support of this government can only 
extend what is inevitable. If what we seek is united democratic 
recognition where all people have equal opportunity as a human 
being, we must ask for greater accountability and push for real 
tangible actions. Certainly, the introduction of House 
Resolution 128 is a great start. While I thank the leadership 
being behind it and all those who co-sponsored it, I ask you 
and I beg you to reach out to your colleagues to co-sponsor to 
speak before it is too late.
    The window of opportunity closes with each passing day, 
with each passing day, lives are murdered at the hands of this 
government. We know that in no democratic country, let alone 
Ethiopia, can a ruling party win an election by 100 percent. We 
should not ignore the young people's aspiration for democracy 
and justice who make up 50 percent of the entire population. We 
must not leave Ethiopia's fate to the current government or 
leave it up to them to investigate into its own gross human 
rights violations documented by the United States Government. 
Ethiopia's ruling party does not represent the country's 
future, but the past. A regime that kills its own people cannot 
be a regional team player for peace or stability.
    For me, I speak about this knowing I am putting my family 
who still lives there and those who I mentor in great danger. I 
choose to speak because this is not history, but rather 
testimony on my own personal experience for which I am ready to 
accept all sacrifices.
    Thank you again for your commitment in promoting democracy, 
peace, justice, and your relentless efforts to speak on human 
rights violations in Ethiopia. Thank you.
    [The prepared statement of Ms. Jimjimo follows:]
    
    

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                              ----------                              


     STATEMENT OF MR. TEWODROSE TIRFE, CO-FOUNDER, AMHARA 
                     ASSOCIATION OF AMERICA

    Mr. Tirfe. Good afternoon. Esteemed members of the 
Subcommittee on Africa, on behalf of the organization I 
represent, Amhara Association of America, Ethiopian-Americans 
across this country, and all Ethiopians who have suffered 
unconscionable brutality at the hands of the Tigray People's 
Liberation Front, the ruling party of Ethiopia, I want to thank 
you for holding this hearing and bringing awareness to a 
humanitarian crisis that has been unfolding before us for the 
past 26 years.
    The subject of today's hearing, Democracy Under Threat in 
Ethiopia, is an misnomer in many ways since democracy has never 
existed under this current Ethiopian Government.
    Since the establishment of the Tigray People's Liberation 
Front, in their 1976 manifesto, they labeled their struggle as 
``anti-Amhara oppressors'' and in order to achieve their 
struggle they must destroy the old and the dominant Amhara 
culture which represents over 30 percent of the Ethiopian 
population and replace it by a new and revolutionary culture. 
It is only through this that they may be able to secede from 
Ethiopia and establish the Republic of Tigray.
    The TPLF-led government has forcefully annexed historical 
Amhara lands of Wolkite, Tegede, Humera, Tselemti, and Raya-
Azebo to Tigray. Under the late Prime Minister, Meles Zenawi, 
the TPLF transferred thousands of Tigray settlers to the 
annexed Amhara land in an attempt to change the demographic 
make-up of the region.
    As the ruling party of Ethiopia, TPLF has been and 
continues to commit ethnic cleansing on the Amhara people in 
Wolkite. Their native tongue, Amharic, is suppressed. 
Widespread discrimination, killing, arrest, torture, and 
confiscation of land have led to many of the ethnic Amhara 
people in this escaping to Gonder City, other regions of 
Ethiopia, and foreign countries for survival.
    In 2015, under the guidance of the Ethiopian Constitution's 
covenants, the Amhara people organized themselves and 
petitioned the Ethiopian Government to have the Wolkite region 
to rejoin to the Amhara State. The response by the TPLF regime 
was to kidnap the officers of the Wolkite Amhara Identity 
Committee in the middle of the night in 2016, and charge them 
with terrorism.
    These officers were named in a joint letter to the U.N. 
Human Rights Council by 15 human rights organizations including 
Human Rights Watch and Amnesty International.
    They are: Colonel Demeke Zewudu, who is the face of the 
Amhara Resistance; Getachew Ademe, Atalay Zafe, Mebratu 
Getahun, Alena Shama, Addisu Serebe, and Nega Banteyehun.
    My family is from Wolkite. I, myself, was born in the 
Wolkite city of Humera. Some of the men arrested are either 
related to me or close to my family. The chairman, Getachew 
Ademe, was a student of my father. Nega Banteyehun is my 
cousin. Their crime is being Amhara and petitioning the 
government for the Wolkite region to be rejoined to the Amhara 
State.
    I have family members who have fled Ethiopia to neighboring 
countries because they are being hunted down, one escaping with 
bullet wounds. I have had to collect money to send to these 
young men who have fled to Sudan, Kenya, and Uganda. It has 
been both financially and emotionally challenging for us.
    But Wolkite and Raya-Azebo are not the only areas where 
ethnic cleansing and genocidal acts have been committed against 
Amharas. We can cite in the areas of Benishangul, West and East 
Arsi and Afar between 1990 and 1994, close to 41,800 Amharas 
were killed and 70,000 Amharas were displaced from their homes. 
In the areas of Wollega in the year 2000, 1,200 Amharas were 
killed and 14,000 displaced from their homes. During this 
atrocity, children were thrown into fire and a 4-year-old child 
was forced to drink the blood of her dead father. In Bench 
Maji, 2015, 600 Amharas were killed and 22,000 Amharas were 
displaced from their homes. In West Shewa, 500 Amharas were 
displaced in 2015. Since the Amhara protests began in 2016, 
over 227, and these are government-provided numbers, have been 
killed, but we believe the numbers are much higher. This is 
just a small sample of the many atrocities committed against 
Amharas.
    As stated in the 2007 Ethiopian Census that was released, 
the Amhara population was short by 2\1/2\ million. A debate was 
not even allowed in Parliament when this fact was presented. 
Some estimates have the number now closer to 5 million. We 
believe there has been a systematic effort by the government to 
depopulate the Amhara population. Thus, the recent protests by 
Amharas was not about democracy or economics, but was simply 
about their identity, their land, and the need to survive as a 
people. Hundreds have been killed while peacefully protesting, 
hundreds of homes burned by security forces in retaliation 
against Amharas, and thousands imprisoned. We can never know 
the exact number killed, wounded, tortured, and arrested unless 
an independent and transparent investigation is conducted by an 
international body.
    When all these horrendous acts of genocide and ethnic 
cleansing were occurring, the world including Ethiopian 
opposition groups were silent. It is because of this silence, 
the Amhara people had no other choice but to organize 
themselves so they may have a voice. It is because of this 
silence and the basic need for survival the Amhara farmers in 
Gonder and Gojam decided to wage an armed struggle. One of the 
leaders of these brave farmers, Gobe Malke, was lost to Amharas 
just 2 weeks ago.
    The Amharas are not the only victims of this brutal regime, 
of course. We have witnessed the atrocious violence committed 
against Oromos where thousands have been killed while 
peacefully protesting, the Konso people, Anuaks, Afars, 
Somalis, and I can go on. The TPLF regime reasons to represent 
6 percent of the Tigray population while at the same time 
suppressing the majority Ethiopian population.
    In the past 26 years, Ethiopia has received over $30 
billion from the United States and over $20 billion from our 
allies. This figure does not take into account the humanitarian 
aid Ethiopia receives from the U.S., Europe, and other donor 
countries. Still, Ethiopia ranks as one of the poorest and most 
corrupt countries in the world. Independent research has 
revealed a corrupt system whereby $2 billion to $3 billion 
annually is leaving the country.
    Ethiopia is again facing a massive famine, with an 
estimated 5.6 million Ethiopians requiring emergency food 
assistance by June 2017. The question Ethiopian-Americans are 
asking is where is all the U.S. aid going? Where is the 
accountability from the State Department and European partners? 
This is not representative of a democratic form of governance, 
and may even be failure by our own democratic government to 
account for taxpayer aid. Unaccountable support to the 
Ethiopian Government does not serve the national security 
interest of the United States. I am honored today to be 
accompanied to this hearing by one of my younger brothers, 
Yowseph Tirfe, who is a veteran of the U.S. Marines and who 
proudly served a tour in Iraq. He was inspired to give back 
because he valued and wanted to preserve the freedom that he 
and our parents were afforded as immigrants in this great 
country. My younger brother, Yowseph Tirfe, has served in the 
United States Army. Ethiopian-Americans are law-abiding and 
tax-paying citizens who are proud to be Americans and deeply 
cherish the security, opportunity, freedom, the value of human 
rights, and representative democracy we have in America. 
However, we are very disappointed with the U.S. foreign policy 
that has failed the Ethiopian people and have appeased a brutal 
regime.
    As an Ethiopian-American based organization, the Amhara 
Association of America has provided a 14 point recommendation 
that we believe will ensure our national security interests and 
will lead Ethiopia on a path to democracy.
    Thank you and I forward to any questions.
    [The prepared statement of Mr. Tirfe follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Mr. Smith. Thank you, sir. Mr. Tafari.

 STATEMENT OF MR. YOSEPH TAFARI, CO-FOUNDER, ETHIOPIAN DROUGHT 
                     RELIEF AID OF COLORADO

    Mr. Tafari. Chairman Smith, Ranking Member Bass, and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the situation in Ethiopia.
    I would like to open my testimony first by thanking our 
representative of the 6th District of Colorado, the Honorable 
Mike Coffman, for his unyielding supportive voice for the
    Ethiopian people and our diverse community in the state. I 
also would like to recognize the passionate advocacy of my 
Ethiopian brothers and sisters from the Oromo community, 
especially Mr. Jamal Said, who is here today.
    Please allow me to introduce myself to make relevance of my 
presence before you. My name is Deacon Yoseph Tafari, co-
founder of the Ethiopian Drought Relief of Colorado. I am an 
ordained deacon serving under the Archdiocese of the exiled 
Ethiopian Orthodox Holy Synod. I am an entrepreneurial 
businessman operating a commercial printing company in 
Colorado.
    I grew up in Ethiopia where in 1976 I was forced to flee 
Ethiopia and seek refuge in the neighboring Sudan. Fortunately, 
I was allowed to enter the United States as a refugee which 
paved the way to a life-changing journey. Since then, Ethiopia 
has not fared well in most measures, especially since the 
current TPLF, the Tigray People's Liberation Front, regime took 
the central political power in 1991. Ethiopia has gone from bad 
to worse.
    Please allow me to provide some of the major aspects of 
Ethiopia's profile.
    Religious freedom. One of Ethiopia's enduring virtues is 
its multi-century tradition of the coexistence of people with 
various Semitic faiths which exists to the present day of 
Ethiopia. By and large, the Ethiopian Christians, Muslims, and 
Jews together have long recognized the individual right to 
worship free from persecution as the only way for national 
cohesiveness. Throughout its history, evidence of common inter-
religious marriages, co-observation of sacred holidays, social 
assimilation, mutual inter-dependence for trade, and even the 
gallant sacrifices shared to defend the freedom of the country 
is a rare find anywhere.
    Therefore, in the fight against extremism and global 
terrorism, one can never find a better natural ally than the 
people of Ethiopia who for centuries have possessed the wisdom 
and ingredients for peaceful coexistence amongst people of 
different religions. This collective asset will undoubtedly 
contribute far more lasting regional stability, provided it is 
represented by a democratic political structure. Instead, 
Ethiopia is ruled by a minority ethnic regime which has brought 
about highly destructive governance by perpetually 
marginalizing and terrorizing other ethnic and religious groups 
by pitting one against the other which may yield a damaging 
consequence to the nation's unique virtues and ultimately the 
fight against extremism and global terrorism itself.
    Ethnic identity. From the early days of its foundation, 
TPLF goals have been well documented. It is to break up 
Ethiopia's population by ethnic identity while simultaneously 
controlling all the nation's resource for the benefit of a 
single ethic minority group. All actions in every layer of 
civic duties, legislation, public policy, economic planning, as 
well as national security is shaped by this singular mission. 
Today, Ethiopia is strained to a breaking point due to 
excessive marginalization of the majority ethnic population. 
Desperate for their lives, hundreds of thousands of Ethiopians 
are fleeing the country making it one of the world's top 
refugee producing nations.
    Oromo and Amhara are the two biggest ethnic groups, 
together composing over 65 percent of the population. Since 
taking power, the regime embarked on a national campaign to 
incite conflict between these two significant ethnic groups to 
no avail. When the clear majority of Ethiopians finally said 
enough, massive protests were sparked across the country. In 
particular, a joint declaration of unity between the Oromo and 
the Amhara ethnic groups, has resulted in the regime declaring 
an emergency decree on the entire nation. Unlike its 
predecessor, the TPLF is a silent killer utilizing covert 
methods including assassins, sniper sharp shooters, poisoning, 
and numerous inhuman methods against its own people. The 
emergency decree is an added blanket tool in its lethal arsenal 
to efficiently execute its barbaric measures against all 
humanity in Ethiopia.
    Much ink has been spilled in documenting the crimes of the 
TPLF regime against the Ethiopian people. In short, Ethiopia is 
a country with no opposition, judicial system, civil society, 
independent media, or political space. Instead, the country has 
turned into closed killing chambers and the prisons and 
detention centers are packed with thousands of political 
prisoners while the world is looking the other way.
    Ethiopia's aspiration for genuine democracy and the reality 
of ethnic dictatorship, to point a few highlights in order to 
frame today's discussion.
    Religious freedom. All religious institutions are under the 
strict control of the regime making moral challenge virtually 
impossible to the ruling party's brutal measures.
    Political freedom. Systematic suppression of independent 
political parties especially after its resounding defeat by the 
opposition parties in the 2005 national election. Since then, 
the regime has devised the most perfect--I say that again--the 
most perfect rigging mechanism of the entire election process, 
resulting in ``perfect vote score'' of 100 percent electoral 
margin in the subsequent national elections of 2010 and 2015.
    Independent media. Ethiopia has virtually no independent 
media within its borders and international broadcasters' 
signals are regularly jammed. Today, Ethiopia is the second-
highest number of jailed journalists in sub-Saharan Africa.
    Independent judicial branch. The legislative and judicial 
bodies in Ethiopia are totally controlled by the regime as a 
convenient ``legalizing platform,'' an effective tool for the 
executive branch to rule the country at will.
    The military. Ethiopia has no national army. I know this 
may come as a surprise to many, but the entire military 
apparatus is a direct extension of the ruling party, and over 
95 percent of its generals are ethnic Tigray to ensure 
unwavering loyalty to the minority regime.
    Economy. Highly centralized where by the largest source of 
gainful employment source in the country is the government 
itself. In order to self-serve the ruling party, it is used as 
an exclusive weapon for nationwide mechanism to reward its 
supporters and punish its potential foes. Despite claims of 
growth and prosperity, Ethiopia still remains the eighth 
world's poorest nation where nearly 20 percent of the 
population is facing endless chronic famine.
    Mr. Donovan [presiding]. We are going to put your entire 
statement into the record. I just want to give the other 
witnesses a chance to speak and make sure all the members get 
to ask their questions.
    Mr. Tafari. Can I----
    Mr. Donovan. Do you want to sum up? Yes, certainly, sir.
    Mr. Tafari. Okay. Ethiopia has been gripped by an 
apartheid-like system of governance affecting 100 million of 
its citizens. The regime has repeatedly showed the world that 
it operates much as an underground criminal enterprise than a 
ruling body with a mandate to govern an ancient country like 
Ethiopia. All its activity and sheer existence is for monetary 
gain from the nation which has made a few individuals of the 
inner circle fabulously wealthy. To those individuals, Ethiopia 
is for sale and the asset of the nation is to be monetized in 
every turn. By providing material assistance it receives under 
the pretext of ``ally against terror'' the regime should never 
be given the license to terrorize its own people. The United 
States needs to take into account that dictatorship based on 
the sole interest of a minority ethnic group can be the most 
ruthless force as the world is just witnessing the humanitarian 
crisis unfolding in present-day Syria. The primordial fear of 
retribution becomes a self-fulfilling cycle of suppression and 
human rights violations by this minority ethnic dictatorship.
    Last, we can find examples within the same continent of 
much better political solutions in which the United States 
played a major role in bringing to historical outcome. This 
fine example is none other than the end of apartheid system in 
South Africa. In both instances, the culprit for the suffering 
of the people of Ethiopia and South Africa is minority ruling 
dictatorship. Intrinsic to its core belief, such system can 
only function by forceful suppression of the will of the 
majority. As a result, both TPLF of Ethiopia and the apartheid 
system of South Africa are the perfect example of unsustainable 
political status quo.
    As in the case of South Africa, the gallant struggle of the 
majority combined with world economic embargo forced the 
dictatorship to come to the table for peaceful transition, 
thereby creating a more perfect union. In my opinion, that is 
the ``the fierce urgency of now'' for Ethiopia today.
    [The prepared statement of Mr. Tafari follows:]
    
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                               ----------                              

    Mr. Donovan. Thank you very much. I have to go on. Mr. 
Deki.

  STATEMENT OF MR. GUYA ABAGUYA DEKI, REPRESENTATIVE, TORTURE 
           ABOLITION AND SURVIVORS SUPPORT COALITION

    Mr. Deki. Thank you. My name is Abaguya Ayele Deki, I am a 
survivor of torture from Ethiopia. I would like to thank this 
subcommittee for inviting me to testify at this important 
hearing, and Congressman Chris Smith and Congressmember Karen 
Bass for introducing House Resolution 128 on Ethiopia.
    I am here today representing the Torture Abolition and 
Survivors Support Coalition, TASSC. TASSC is a small 
organization in Washington DC that services to more than 300 
torture survivors a year, mostly from Africa. Two-thirds of 
TASSC survivors are from Ethiopia. They were brutally tortured 
and raped for criticizing the government, refusing to join the 
ruling party, exposing government corruption, or participating 
in a peaceful demonstration.
    This is my story. After I contracted polio at age three, my 
father decided I needed an education to survive. He sent me to 
an orphanage in Addis Ababa where I completed high school. I 
graduated at the top of my class and then became the first 
student in a wheelchair to enroll at Addis Ababa University. 
The students used to call me the ``wheelchair man.''
    There was and still is lots of prejudice against disabled 
people in Ethiopia. But since I was very young, I decided to 
fight for my rights instead of feeling sorry for myself. I 
became an activist for disability rights and then general 
manager of the National Association of the Physically 
Handicapped, a job I held for 7 years. Because I was a leader 
of such a large independent organization, the ruling party, the 
Ethiopian People's Revolutionary Democratic Front, or EPRDF, 
wanted to control and manipulate me. It tried to force me to 
tell the media and the community what a great job the party was 
doing for disabled people. But this was not true.
    I remember one time before the 2005 election, government 
cadres took wheelchairs donated by the United States, Sweden, 
and The Netherlands had donated and put them on a truck. They 
drove the truck through the city telling people the wheelchairs 
were a ``gift'' from the ruling party and about how the party 
helped disabled people. But it was all a big lie. The 
government did nothing for us. It was America and the other 
foreign donors who helped us.
    The government became much more repressive, especially in 
Addis Ababa, after losing the 2005 election. Cadres started 
attacking anyone who criticized the government. In many 
neighborhoods, commandos called the Agazi invaded people's 
homes and dragged the men to hidden prisons. The Agazi 
threatened the women, saying their husbands and children would 
be killed if the women did not have sex with the Agazi. These 
Agazi are not part of the police or army, they are special 
forces trained to be killing machines.
    I was detained a total of nine times for refusing to 
participate in activities to promote the ruling party. In 2007, 
security forces abducted me in a van and took me to a jungle 
about 25 kilometers from Addis Ababa. They threw me and my 
wheelchair out of the van, breaking one of my fingers and badly 
bruising my shoulders. They thought I would be killed and eaten 
by hyenas, since they threw me in a place with lots of hyenas. 
I made a fire from dry grass using my lighter, local families 
from the Oromo ethnic group found and rescued me.
    In 2010, I was arrested again by security forces in a taxi. 
The driver punched me in my mouth with his pistol and I lost my 
two lower teeth. They kept me for 3 days in solitary 
confinement in a tiny dark cell. My hands were tied to a chair 
and my mouth was wrapped up with dirty wet socks and I had to 
crawl on the ground outside to get to the toilet outside my 
cell. Friends and board members of my association convinced 
them to finally release me.
    The government wanted me to go into exile instead of 
killing me because then I would have become a martyr for people 
with disabilities.
    In 2013, I did leave Ethiopia to save my life and then in 
2014, I was granted asylum. I am now living in Joseph's House 
in Washington, DC, and hope to study computer science at the 
university. I would like to conclude my testimony with some 
recommendations.
    First, House Resolution 128 refers to the Global Magnitsky 
Human Rights Accountability Act which calls on the United 
States Government to punish individuals or entities responsible 
for killings, torture, and other gross violations of human 
rights. The Magnitsky Act should be applied to leaders of the 
Agazi killing machine and the security forces guilty of 
terrible human rights abuses.
    Second, House Resolution 128 also calls for better 
oversight and accountability of U.S. assistance to Ethiopia. 
People need this aid, especially to prevent and treat HIV/AIDS 
and other diseases, improve education, and combat food 
insecurity. But the government divers far too much of this aid 
for political purposes, to promote the ruling party and to pay 
off government supporters. There needs to be a stronger 
monitoring mechanism to ensure American funds are used wisely, 
not to strengthen Ethiopia's one party ethnic dictatorship. 
Also, in certain regions, women from the Amhara ethnic group 
are being possibly sterilized in government hospitals to reduce 
the Amhara population. USAID should investigate to see if any 
of these forced sterilizations are being carried out in 
hospitals supported by the U.S. assistance.
    Third, please, ask Mr. Girma Birru, Ethiopia's Ambassador 
to the United States, to tell his government to immediately 
stop harassing the families of tortured survivors and the other 
Ethiopians in the United States. Many TASSC survivors are upset 
because the government began harassing their families in 
Ethiopia after they fled the country.
    Thank you for listening to my testimony. I hope the 
Ethiopian Government will pay attention to this hearing and 
change its policies and that the U.S. Congress will be watching 
closely to see whether Ethiopia makes any specific and concrete 
changes after this hearing. Thank you.
    [The prepared statement of Mr. Deki follows:]
    
    
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
                              ----------                              

    Mr. Donovan. Thank you for sharing your experience with us, 
Mr. Deki.
    Each member of the subcommittee will be allowed 5 minutes 
to ask questions. I now recognize myself for 5 minutes. I would 
like to begin by congratulating and recognizing the great work 
of Chairman Chris Smith and my good friend, Karen Bass from 
California, on House Resolution 128. That is a starting point.
    What I would like to use my 5 minutes up with is to ask you 
each just to describe for 1 minute aside from the House 
Resolution, what do you think the United States can do to help 
Ethiopia and their efforts for a better democracy?
    Ms. Jimjimo. First, the U.S. has a lot of opportunity to 
negotiate and talk to the Ethiopian Government because they 
receive millions of aid from the U.S. and not only the aid that 
comes from here, but the influence of other governments whether 
the European Government or Asian, other governments. But they 
have a leverage to influence the whole entire world, how they 
operate with the Ethiopian Government.
    So what they need to do, I think, is the U.S. can, should 
pressure the Ethiopian Government to open up--first they should 
release all political prisoners without any precondition. Lift 
the state of emergency because what is happening under the 
state of emergency that people cannot record any video. People 
cannot be seen walking together. So they go house to house 
killing people and lift the state of emergency and allow 
journalists, not just even Ethiopian journalists, but 
international community, such as what the U.N. asked last year 
for independent investigation. For that to happen, they need to 
force and allow, actually, demand that they do a lot of those 
independent investigations to take place of all those killings. 
The killing is not being reported.
    And another thing is the U.S. does give a lot of money. 
That money should come with a lot of accountability. For 
example, the question that was asked earlier, U.S. gives 
millions of dollars and is that money going to certain people 
even if it is going to a small amount of people. The vast 
majority of that money is being used even if it goes to the 
people, it goes to the people through only government channel 
with you support me, you do this, or you vote for me or you do 
something for me, then you get this fertilizer, you get this 
kind of aid. So make sure those civic organizations actually do 
exist and the new proclamation system they have is like 
everything is through government. There is no NGO or 
independent organization that is operating independently 
outside of Ethiopia, even the international organizations.
    So the U.S. has huge leverage. They should use this 
leverage to open up the political space, request the release of 
political prisoners, lift the state of emergency and above all, 
I think it is time that Ethiopia should not continue to be 
ruled with the one party, even though they fake federalism, 
that does not actually exist. But that is what I think should 
happen.
    [Additional information follows:]
    Additional Written Response Received from Ms. Seenaa Jimjimo to 
   Question Asked During the Hearing by the Honorable Daniel Donovan
    The Ethiopian regime is a one-party state that has been in power 
for the past 26 years. The Ethiopian People's Revolutionary Democratic 
Front (EPRDF) controls 100% of the political space at all levels--
local, regional and state, plus the legislative, executive, judiciary 
and security apparatus of the country while the majority of the people 
of Ethiopia, particularly in Oromia and Amhara states, which add up to 
at least 60% the entire population, has rejected the regime. Hence, the 
State of Emergency to control a large swath of the country by direct 
military command posts.
    Lack of tolerance by the EPRDF for multiparty democracy is the 
leading obstacle to the opportunity for democratic tradition taking 
root in Ethiopia. EPRDF on its owe will never open up the political 
space in Ethiopia without either outside pressure or inside turmoil. We 
have seen this since the 2005 election, at which point the EPRDF 
experimented with democracy and seen the outcome, which was not 
favorable to EPRDF, and since closed the democratic avenues firmly, by 
passing laws that effectively bans civic societies and independent 
political parties.
    The current situation in Ethiopia is a clear recipe for a 
devastating instability in the Horn of Africa unless stopped--a region 
already troubled by civil wars, failed states, famine, extremism and 
other natural disasters. Therefore, in addition to already introduced 
H. Res. 128, the United States government should consider the following 
options in order to give democracy a chance in Ethiopia:
    A. Since, the second largest regional state--Amhara regional state 
has joined Oromia in resisting EPRDF rule, the United States policy 
towards Ethiopia has to show a paradigm shift i.e. recognize Oromia 
political actors as the future of Ethiopia in regards to betterment of 
the efforts of the people of Ethiopia for democracy.
    B. The United States should provide tangible efforts such as 
training, diplomatic, financial and other support to start dialog with 
opposition party that represent constituent not the one the government 
creates at free will when they deem necessary to confuse/manipulate the 
international community.
    C. Insist for immediate access to Ethiopia by the UN human rights 
rapporteur to conduct an independent investigation into the Ethiopian 
state brutality against peaceful demonstration in Oromia, Amhara, 
Gambela and other regional states.
    D. Demand the immediate release of tens of thousands of political 
prisons in Ethiopia, including prominent democratic leaders such as 
Mr.Bekle Gerba, Dr. Merera Gudina, federal judge Wabe Jarso, highly 
respected elder and lawyer Mr. Dekeba Wario and highly respected 
historian, thinker and cultural guru Dabasa Guyo, journalist, and all 
other political prisoners in the country.
    E. Accept the fact that EPRDF had 26 long years to improve 
democracy in Ethiopia and failed or has shown no interest in listening 
to the United States in this regards. So, the United States should 
consider a new policy vis-a-vis the democratic transition of power in 
Ethiopia. In this regards, it may pay off to sponsor a research project 
that can objectively study the possibilities for nurturing effective 
opposition or alternative political force/s that is/are able to replace 
the EPRDF and make recommendations to the United States government who 
should be supported.
    F. The United States remains among the largest donors to Ethiopia. 
The United State development assistance to Ethiopia focuses on reducing 
famine vulnerability, hunger, and poverty and emphasizes economic, 
governance, and social sector policy reforms. Moreover, as a strategic 
United States alliance in war against terrorism, Ethiopia also receives 
large sums of money and technical aid towards its military and 
intelligence capability. The EPRDF uses money from aid given to the 
Ethiopian regime for total domination and favoring its own supporters 
as a means to remain in power. Hence, the United States must give aid 
money and assistance directly to local and international non-
governmental organizations to deliver to the people in need of 
assistance rather than funding a corrupt regime.

    Mr. Donovan. Thank you very much. Mr. Tirfe, I know you 
said you had 14 points. If you could just summarize what they 
are. You didn't think I was listening, did you?
    Mr. Tirfe. I guess you did listen. Thank you for that. And 
thank you for your question. I won't repeat what Seenaa said, 
so to echo what she said, the U.S. does have a lot of leverage.
    Ethiopian Government, the TPLF government mainly is heavily 
dependent on foreign aid. So that foreign aid can be used to 
open up some things within Ethiopia to allow the political 
space and other civic organizations to operate. So not just the 
foreign aid that comes from America, but also from our allies. 
But America can lead that effort.
    One of the things that is really concerning to us is to 
allow for an international, independent and transparent 
investigation into the cost of 2\1/2\ million to 5 million 
missing Amharas. As he has just stated, that there is a belief 
that there is a forced sterilization effort of Amhara women 
that has been taken place to depopulate the Amhara population. 
We cannot know that unless there is an independent 
investigation that happens there. And there is a belief that 
there is a silent genocide that is occurring now amongst the 
Amhara population.
    Also, we need a push to allow for international independent 
transparent investigation into all the deaths caused by the 
Ethiopian security forces and other human rights violations and 
hold those responsible accountable.
    Mr. Donovan. Thank you. I only have 30 seconds left. I need 
to let these two gentlemen speak. Thank you.
    Mr. Tirfe. Sure.
    Mr. Donovan. Thank you and we will review every one of 
those 14 points. I promise you.
    Mr. Tirfe. And I will follow up.
    Mr. Donovan. Thank you. Mr. Tafari.
    Mr. Tafari. How many seconds do I have?
    Mr. Donovan. Fourteen now, but go ahead.
    Mr. Tafari. Well, in that case, I will just state one. 
Immediate hold of direct foreign aid to the Ethiopian 
Government, especially direct budgetary assistance, and all 
humanitarian assistance should be applied to a direct 
humanitarian organization on the ground, preferably the United 
Nations' World Food Programme.
    Mr. Donovan. Thank you, sir. Mr. Deki, do you have any 
recommendations to the United States?
    Mr. Deki. I would say if United States doesn't give due 
recognition for this dictatorship as elected government so that 
they cannot use this political support or recognition to harm 
the people back home. So United States should scrutinize that. 
The minority represented party cannot be elected 100 percent. 
Therefore, the United States, the first and most important to 
just denying political recognition. Thank you.
    Mr. Donovan. Thank you, sir. And thank you again for 
sharing your story with us. And best of luck with your studies.
    The chair now recognizes my friend from California, the 
ranking member of the subcommittee, Karen Bass.
    Ms. Bass. Thank you, Mr. Chairman. So I wanted to ask a few 
questions. I mentioned in the first panel that a reference was 
made to a letter from the Embassy of Ethiopia, but Chairman 
Smith says it is a from a consulting firm that was paid a hefty 
amount of money, $1.8 million, he presumes. But I want to raise 
several of the things that are mentioned in their letter.
    If I cut you off, it is only because I have limited time 
and so I want everybody to have an opportunity to respond.
    So one of the things it is said in this letter is that it 
is not that the EPRDF controls all of the seats in Parliament. 
They control 500 out of 546. And that there are 46 seats that 
are controlled by other parties. So I want to know is that 
true, yes or no?
    Ms. Jimjimo. The short is that is not true because even if 
those 46 persons, these people are 100 percent controlled by 
EPRDF in every aspect of the government.
    [Additional information follows:]
    Additional Written Response Received from Ms. Seenaa Jimjimo to 
     Question Asked During the Hearing by the Honorable Karen Bass
    In order to answer this question one needs to understand what EPRDF 
is. The EPRDF is an alliance of four parties: the TPLF based in the 
Tigray Region; the OPDO, which is based in the Oromia Region; the ANDM 
based in the Amhara Region; and the SEPDF based in the Southern 
Nations. Nationalities, and People's Region. This alliance won 500 
seats in the national parliament.
    The OPDO, ANDM, and SEPDF are surrogate organizations controlling 
their respective regions for the TPLF. Now, the TPLF has also created 
surrogate organizations (although not formally part of the EPRDF 
alliance) for the rest of the regions: SPDP in Somali Region; BGPDP in 
Benishangul Gumuz Region; ANDP in Afar Region, GPDM in Gambela Region; 
APDO in Argoba Region; and HNL in Hareri Region. These surrogate 
organisations created by TPLF won 47 seats.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Map of Ethiopia's regional states

    Although the EPRDF alleges that it won 500 out of 547 seats, I 
reality the EPRDF controls 100% the seats through its surrogate 
parties.
    Time and again they have openly and proudly have bragged about 
winning 100% of the seats. In addition, United State national security 
advisory Susan Rice said they won by 100% at press statement on July 
22, 2015. In fact, whether EPRDF controls 100% or 90% of the so-called 
parliamentary seats is academic as on the ground the EPRDF controls the 
entire economic, social and political lives of people in Ethiopia.

    Ms. Bass. Okay, the second question is that there has been 
a halt to the moving of people off the land, that that has been 
halted; that the plans to incorporate farm land around Addis 
Ababa were on hold. Is this still the case? Has there been any 
seizure of land taking place elsewhere in the country? Mr. 
Tirfe?
    Mr. Tirfe. I mean right now, Representative Bass, Ethiopia 
is under a state of emergency and so to know what is going on 
in terms of moving people outside of their land is very 
difficult. But one thing that we do know, the Amharas in the 
Wolkite region are being moved out of their land and in fact, 
because out of fear, their own, themselves, they are moving. 
They are leaving that area into safer regions and many are 
escaping to neighboring countries.
    [A written response follows:]
  Written Response Received from Ms. Seenaa Jimjimo to Question Asked 
             During the Hearing by the Honorable Karen Bass
    No, the expansion of the capital and displacing Oromo farmers is 
not halted. It is true that the Ethiopian regime was forced to announce 
that it will abandon the plan for the expansion of the capital in 
January 2016, after two months of protests by the Oromo people who have 
complained about the handling of the expansion into their land. 
However, the regime has announced a renewal of the expansion known as 
the 'Master Plan' and the formation of a special committee that will 
have an oversight of the removal of 20,000 Oromo households (estimated 
100,000 people) from areas surrounding the capital, according to a 
special broadcast on Ethiopian Broadcasting Corporation (EBC) 
television, on 13 December 2016. After this was announced, the Oromo 
people would have been back on the streets demonstrating against the 
renewed expansion of the capital had it not been for the State of 
Emergency and the military command posts all over Oromia.
    The scale of the so called 'integrated zone' covered in the plan 
for the expansion of the capital ('Master Plan') needs to be 
understood. The plan for expansion in the plan includes a 1.1m hectare 
strip of land around the city, outside the current municipal 
boundaries. A glance at the map shows the expansion of Addis Ababa 
would have neatly bisect Oromia.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    It is my understanding that the regime is determined to implement 
the expansion of the capital into Oromo land for the purpose of ethnic 
cleansing rather than a natural development of the capital. In so many 
town planning experts' opinions the capital must grow upwards rather 
than into the villages and small towns in the vicinity with all its 
disastrous consequences for human life and the environment.
    Furthermore, it is important to remember the behavior of this 
government. Like other policies they announce time and again they will 
only change the name and tactic not actually address the root issue. In 
the case of 'Master Plan', not only did they made the same statement of 
halt in 2014 but also the party leaders like Abay Tsahaye have said it 
out in open on the national TV that the plan will be implement one way 
or the others. Therefore, they cannot be trusted or their word cannot 
be taken literally because of ...


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               EBC TV programme 13 Dec 2016 (screenshot)

    Ms. Bass. Okay, the ruling party has said that they are 
embarking on a dialogue and a negotiation with 22 opposition 
parties. The dialogue and consultations will include a 
discussion on amending the election laws and encouraging the 
participation on different voices in Parliament. Mr. Tafari?
    Mr. Tafari. The history of TPLF, the EPRDF is woeful in 
terms of having to cooperate and work with any opposition 
group, with anyone.
    [A written response follows:]
  Written Response Received from Ms. Seenaa Jimjimo to Question Asked 
             During the Hearing by the Honorable Karen Bass
    To begin with only three are truly opposition groups while 19 
others are simply created by government. Second, as of now the single 
largest opposition party, Oromo Federalist Congress (OFC) have formal 
withdrawn. Third, if the opposition parties' leaders are in jail who 
are they negotiating with? In fact, on the latest interview by the 
largest option party, MEDREK leader Prof. Beyene Petros (an umbra 
organization that represent several different option, Oromo Federalist 
Congress, Sidama Liberation Front, Union of Tigreans for Democracy and 
Sovereignty and the Ethiopian Social Democracy--Southern Ethiopian 
people Democratic Union) said there is no point without of staying on 
table if our demand were not met. According to him the PM . . . seem to 
walk back on something he promised the party leader. To be frank to 
expect this negotiation will be fruitful is totally absurd because 
these so-called opposition parties know if they do not accept they will 
be arrested or worse killed or pushed to exile.

    Ms. Bass. Is there a dialogue that is taking place?
    Mr. Tafari. There is, but all we have to do is go back 40 
years of their history to see how we see these type of 
dialogues would come to a real fruition.
    Ms. Bass. Okay. Measures were taken on the government 
officials who were engaged in corrupt practices and some were 
removed from office and the legal process is underway. Mr. 
Deki?
    Mr. Deki. This is a big lie. The TPLF is known by its big 
lie.
    Ms. Bass. Go ahead.
    Mr. Deki. I would like to remember the past history of TPLF 
which says we can negotiate just below the sun. Everything then 
after just starting the negotiation and the opposition parties 
came to the table, then the facilitator is changed from the 
Prime Minister and then it is forgotten. They are killing 
people like that. They are very much well versed in this 
manipulation.
    [A written response follows:]
  Written Response Received from Ms. Seenaa Jimjimo to Question Asked 
             During the Hearing by the Honorable Karen Bass
    Nothing is far from this or the truth in this regard. This sort of 
shenanigan by the regime is not new. They regime has been engaged in 
'removing corrupt officials' since the mid 1990 starting from the 
removal of the then prime minister Mr. Tamrat Layne (removed from 
office on charge of corruption in 1995). The fact is the real corrupt 
inner TPLF circle is never removed. The ruling elite uses corruption as 
a pretext to get rid of opponents and non-loyal officials. They had two 
decades to stump out corruption, but nothing seems working. If 
anything, corruption is getting worse by the day. For instance, 
according to Transparency International's Corruption Perception Index, 
Ethiopia ranks 103 out of 168 countries and territories included in 
2015 index [https://www.transparency.org/cpi2015].
    Moreover, in the case of recent 2016 Oromo Protests, there is no 
single individual brought to court or announced to public they were 
removed from office either for corruption or violating/ excessive use 
of force that killed hundreds by government admission. If the rotation 
or reshuffling of the Oromia president or few high officials is/can be 
considered the government is addressing corruption than these people 
are only placed in different position. How is rotating or reshuffling 
can be/should be considered as addressing corruption? If not government 
need to show or name a single individual who lost his/her job because 
of corruption or killing hundreds of unarmed protests.

    Ms. Bass. So going back to what I was referring to in the 
past about the elections in 2015, there were a number of 
televised debates during which all sorts of political issues 
were voiced and argued between the candidates. Back to Ms. 
Jimjimo.
    Mr. Tirfe. Can you repeat the question, Representative 
Bass?
    Ms. Bass. Sure. In the last election, there were numerous 
televised debates during which all sorts of political issues 
were voiced and argued between the candidates. This is in 
contrast to the notion that there has been diminished political 
space.
    [A written response follows:]
  Written Response Received from Ms. Seenaa Jimjimo to Question Asked 
             During the Hearing by the Honorable Karen Bass
    First, even during televised debate the opposition parties were 
given only limited time whereas the EPRDF was given as much time as it 
liked. Second, right after televised debate where Mr. Bekele Gerba gave 
influential statement he was given ultimatum, warning and physical 
abuse by the EPRDF security agents for speaking what he believed and 
forthright. Hence, the debate was nothing more than a facfade that the 
EPRDF used for tricking donors and the international community. The 
people of Ethiopia are forced to vote for the EPRDF not because the 
EPRDF was better at debate but rather uses underhand techniques of 
controlling the population for people voting for the opposition parties 
are not entitled to employment, food aid, land or any rights that the 
people who grudgingly vote for EPRDF.
    Therefore, what is the purpose of televised debate when there is no 
fair or free election where international observers are not present?
    Moreover, could quasi debate whereby individuals know what they say 
on that stage will be used against them as 'plan to terrorize or 
overthrow government' be a real indicator for open and free debate let 
alone ground for fair election? How come those who spoke against the 
policy of the government are relinquishing in jail? How come opposition 
leader Mr. Gerba sits in jail with terrorism charge while his party is 
not labeled as such or sits in jail for over 14 months without 
government haven to provide his link or action to terrorism? To 
governments' admission over 28,000 people were arrested since the State 
of Emergency'' and what are the crimes of those individuals beside 
taken part in peaceful rally to express their grievance? In what 
nation, can a government impose such restriction in social media, 
arrested thousands of people without justification, implement state of 
martial law simply to control dissent and continue to intimidate 
citizen while receiving unconditional support to which millions end up 
in military training to kill, arrest and abuse citizen? When should the 
international community say enough that a country that received 30 
billion in aid and stole 30 billion (Steinan) https://www.forbes.com/
sites/realspin/2017/03/03/ethiopias-cruel-con-game/#17e5352b29d0, 
refused UN request and ignore US continues concern statement? When or 
where is the red line for Ethiopian government?

    Mr. Tirfe. Representative Bass, the TPLF-led political 
party won 100 percent of all parliamentarian seats in 2015.
    Ms. Bass. They won 500 out of 546.
    Mr. Tirfe. One hundred percent and the regional seats, 100 
percent also. So imagine the Democratic or Republican party 
winning all of Congress, as well as the governors and----
    Ms. Bass. Depending on which party you are in.
    Mr. Tirfe. Right. I know many of us refer to 2015, but if 
we go back to the 2005 election, they won 99.99 percent of all 
the parliamentarian seats.
    Ms. Bass. I think the point of the letter was to show that 
some progress had been made and so that was the question.
    Mr. Tirfe. No, because we went from 2005 election where 
there was one opposing member in Parliament to in 2015, there 
is none. They won 100 percent.
    Ms. Bass. Thank you.
    Ms. Jimjimo. I would like to just answer that. The thing is 
they have arrested all liable, all actual opposition parties. 
They are in jail. So they create their own party and they bring 
22 parties. There is no dominant or a voice that is talking to 
them. They created, they make up and then they call is a 
negotiation. I just wanted to add that.
    Ms. Bass. Thank you. I yield back my time.
    Mr. Donovan. The chair recognizes for 10 seconds because he 
has to leave for somewhere else. Actually, it is Mr. 
Rohrabacher's time, but the chair is going to recognize Mr. 
Suozzi for 10 seconds.
    Mr. Suozzi. I just want to thank all of you because I know 
how difficult it was for you to get here and prepare for this 
today. I apologize that I can't stay, but thank you very much. 
[Speaking foreign language.] Thank you very much.
    Mr. Donovan. We had to allow him to show you that he 
studied before the hearing. The chair now recognizes my friend 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. First and foremost, I would like to thank 
the witnesses for coming here and to putting yourselves in a 
public place on the record, when you were dealing with a brutal 
regime that you have no idea whether or not you will face 
retaliation. So thank you for having the courage and thank you 
for your patriotism to your country of Ethiopia.
    And frankly, I believe all those people who believe in 
honest government, all those people who believe in honest 
elections and representative government are all basically 
Americans at heart. So your fellow Americans who share those 
values wish you well.
    I want to thank Chris Smith as the chairman of this 
subcommittee. I believe the fact that he has put this hearing 
together, he has been unrelenting in his efforts to expand 
freedom and respect for the dignity of individuals around this 
world. And nowhere is that message of Chris Smith more 
important than in Ethiopia.
    And let me just say that I think it is disgraceful, 
especially after the election of 2005 where it was clearly a 
loss of ruling party and then we end up with understanding that 
a--I don't know what I want to describe it as--an offensive 
after the election with military equipment spreads out 
throughout the country of Ethiopia and the people of Ethiopia 
begin feeling oppression immediately after a supposed free 
election. And the worst part of that is that these people who 
were out there in their uniforms have American weapons that 
they were using to repress their own people.
    I believe there has to be some level that we Americans 
have, if indeed we do share, if we really are soul mates with 
people who love freedom around the world, at the very least, we 
should say that corrupt regimes that utilize weapon systems 
from the United States to repress their own people will be not 
be provided those weapons. So I would renew that today. It is 
time to eliminate Ethiopia from its ability to purchase and to 
obtain United States weapons.
    Okay, so what is the result of all of this? What is going 
on? The result of this is you have repression, political 
repression. How does it manifest itself? Twenty percent of the 
people of Ethiopia are hungry. They are starving. This is 
outrageous. This is a country that has every ability to feed 
itself if it had honest government and instead, you have a 
small clique running Ethiopia and we have heard the testimony 
today. A small clique that is corrupt and brutal and the 
product of that raping of that country, the product of that is 
not only repression, but misery and hunger for a larger 
percentage of its people.
    It is disgraceful and it is time for the United States--I 
understand during this whole war against radical Islam and we 
have been at war with radical Islam because they are at war 
with us, radical Islamist terrorists want to hurt the United 
States. We have used that as an excuse to form a relationship 
with a horrible regime.
    I have to ask you now if we didn't support this government 
in Ethiopia that says it is helping us with radical Islamic 
terrorists, wouldn't just regular people and a really honestly 
elected government be against radical Islamist terrorism? There 
you go.
    Now let me let you know how I understand, how I came to 
understand this issue. I am a surfer out in California. That is 
what I do. I am a surfer. I couldn't help but notice that there 
was a black surfer who was with me out in the water. So one of 
the few black surfers in California is Petros Berhane who comes 
from Ethiopia and became one of my best friends. And his family 
owned a major distillery in Addis Ababa and when the communists 
took over, they left, they fled and his family are now U.S. 
citizens, proud U.S. citizens.
    Anyway, he told me about the plight of his family. And 
after the communists left, they were supposed to get back the 
distillery. All of the property that was illegally confiscated 
was supposed to be given back by the current ruling clique. But 
instead the current ruling clique found out that his distillery 
had actually been making money and so they are not getting back 
their distillery.
    And the reason I am telling you this is because I have been 
a Member of Congress here for a number of years. I am a senior 
member, so I have been working for my--he is my surfing buddy, 
but he is also my constituent who I am watching out for his 
needs. And I was demanding that the Ethiopian Government, if 
they are not going to give back that distillery at least give 
him some compensation for taking the distillery. Well, the 
government there has been so arrogant they refused to even 
consider any type of compensation.
    I had the Overseas Private Investment Corporation do an 
analysis to make sure that that claim was a legitimate claim. 
And they came back and they said yes, we find the fact that the 
Berhane family honestly owns that and they should be given some 
compensation for it. Well, I said okay. There is going to be no 
loans guaranteed through the Overseas Private Investment 
Corporation to Ethiopia until they treat this American citizen 
right and do justice by him. All of these years now, it has 
been over 10 years, maybe 15 years. The Government of Ethiopia 
is so arrogant, or also may be making money from the distillery 
themselves, that they were willing to sacrifice the well-being 
of the people of Ethiopia in order not to pay any just 
compensation to a man whose distillery had been illegally 
confiscated.
    Now if you just take Petros out of the picture and you just 
say these people who are heading that government do not care 
anything enough about their people because all these 
investments which we would have been involved with helping 
bringing jobs and money and wealth to the people, they rejected 
that because they themselves were not going to necessarily 
benefit from it as compared to owning that distillery or 
whatever they are getting from that distillery. So if we have a 
government that cares that little about their own people, a 
government that basically represents a very small minority of 
people in Ethiopia and we are providing that small clique, that 
corrupt and brutal clique, it is time for the United States to 
step up and say we made a mistake by going down the road with 
that clique of people. We should be friends with the overall 
population of Ethiopia and not just that clique. That would 
serve America's interests as well as the people of Ethiopia.
    Mr. Donovan. I would like to ask our guests to respect to 
decorum of the chamber. Thank you, Member Rohrabacher.
    This concludes the testimony and the questions of the 
members of the hearing. I remind everyone that the record of 
the hearing will remain open for 10 days. Many of the members 
may have other questions they may want to submit during that 
10-day period. We that all of you submit your answers to those 
questions in writing. I thank you all for appearing today. I 
thank you for your testimony.
    Again, Mr. Deki, I thank you for sharing your experiences 
with all of us.
    The Subcommittee on Africa, Global Health, Global Human 
Rights, and International Organizations is now adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
         
 
                                 [all]
</pre></body></html>
